<html>
<title> - CONTINUING TO IMPROVE TRUCK SAFETY ON OUR NATION'S HIGHWAYS</title>
<body><pre>[Senate Hearing 115-61]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 115-61

                  CONTINUING TO IMPROVE TRUCK SAFETY 
                        ON OUR NATION'S HIGHWAYS

=======================================================================

                                HEARING

                               BEFORE THE 

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY AND SECURITY

                                OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              


                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-593 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="492e3926092a3c3a3d212c2539672a262467">[email&#160;protected]</a>        
       
       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                
                                
                                ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY AND SECURITY

DEB FISCHER, Nebraska, Chairman      CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  AMY KLOBUCHAR, Minnesota
DEAN HELLER, Nevada                  RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 14, 2017...................................     1
Statement of Senator Fischer.....................................     1
    Letter dated March 13, 2017 to Hon. Deb Fischer, Chair, and 
      Hon. Cory Booker, Ranking Member, Subcommittee on Surface 
      Transportation and Merchant Marine Infrastructure, Safety, 
      and Security, Committee on Commerce, Science, and 
      Transportation, from Jacqueline S. Gillan, President, and 
      Joan Claybrook, Consumer Co-Chair, former Administrator, 
      NHTSA, Advocates for Highway and Auto Safety (Advocates)...    41
    Letter dated March 13, 2017 to Hon. Deb Fischer, Chairman, 
      and Hon. Cory Booker, Ranking Member, Subcommittee on 
      Surface Transportation and Merchant Marine Infrastructure, 
      Safety, and Security, Committee on Commerce, Science, and 
      Transportation, from Nathaniel Wienecke, Senior Vice 
      President, Federal Government Relations, Property Casualty 
      Insurers...................................................    43
    Letter dated March 14, 2017 to Hon. Deb Fischer, Chair and 
      Hon. Cory Booker, Ranking Member, Subcommittee on Surface 
      Transportation and Merchant Marine Infrastructure, Safety, 
      and Security, Committee on Commerce, Science, and 
      Transportation, from Lane Chandler Kidd, Managing Director, 
      Alliance for Driver Safety & Security (The Trucking 
      Alliance)..................................................    44
Statement of Senator Booker......................................     3
Statement of Senator Blumenthal..................................    48
Statement of Senator Wicker......................................    49
Statement of Senator Hassan......................................    51
Statement of Senator Klobuchar...................................    53
Statement of Senator Capito......................................    56
Statement of Senator Thune.......................................    58
Statement of Senator Duckworth...................................    61

                               Witnesses

Hon. Christopher A. Hart, Chairman, National Transportation 
  Safety Board...................................................     5
    Prepared statement...........................................     6
Chris Turner, Captain, Kansas City Highway Patrol, and Vice 
  President, Commercial Vehicle Safety Alliance..................    14
    Prepared statement...........................................    15
Paul P. Jovanis, Ph.D., Professor Emeritus, Pennsylvania State 
  University, and Chair, Transportation Research Board Motor 
  Carrier Safety Research Analysis Committee.....................    21
    Prepared statement...........................................    23
Jerry Moyes, Chairman Emeritus, Swift Transportation Company.....    27
    Prepared statement...........................................    29
Adrian K. Lund, Ph.D., President, Insurance Institute for Highway 
  Safety.........................................................    31
    Prepared statement...........................................    32

 
                  CONTINUING TO IMPROVE TRUCK SAFETY 
                        ON OUR NATION'S HIGHWAYS

                              ----------                              


                        TUESDAY, MARCH 14, 2017

                               U.S. Senate,
         Subcommittee on Surface Transportation and
           Merchant Marine Infrastructure, Safety, and Security,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:31 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Deb Fischer, 
Chairman of the Subcommittee, presiding.
    Present: Senators Fischer [presiding], Booker, Wicker, 
Capito, Young, Thune, Cantwell, Klobuchar, Blumenthal, Hassan, 
and Duckworth.

            OPENING STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    The Chairman. Good afternoon and welcome. I would like to 
call the hearing to order, please. I thank you all for being 
here today for a second hearing of the Surface Transportation 
and Merchant Marine Infrastructure, Safety, and Security 
Subcommittee.
    Today's hearing, entitled, ``Continuing to Improve Truck 
Safety on our Nation's Highways,'' brings together a panel of 
expert witnesses to discuss this important topic.
    Enhancing the safety of our Nation's highways and roads is 
a critical responsibility of Congress, the Department of 
Transportation, local governments, law enforcement officials, 
and everyone who uses our roads. We must strive to strengthen 
the safety and reliability of our transportation system.
    Commercial vehicles are a key component of our multimodal 
transportation system. From globally recognized companies to 
small single-truck owner-operators, America's truckers move 
billions of dollars of goods and materials each year.
    In 2014, more than 31 million commercial trucks hauled 10.5 
billion tons of freight across this country. More than 7 
million Americans are employed in the trucking sector. In 
Nebraska, trucking employs 1 out of every 12 workers, 
representing nearly 63,000 people.
    I am pleased that commercial vehicle operators have made 
significant investments in safety. According to estimates by 
the American Trucking Association, carriers are making a $9.5 
billion annual investment in safety through expenditures on 
driver training and screening, safety incentive pay, advanced 
technologies, and compliance.
    Innovation and technology can also serve as key tools for 
advancing safety on our roads. Last month, this subcommittee 
heard testimony from Schneider National trucking. Schneider, 
like others, is investing in radar-based collision mitigation 
systems. According to CEO Chris Lofgren, Schneider has 
``experienced a 69 percent decrease in rear-end accidents.''
    Other carriers are investing in safety technology such as 
event recorders, blind spot monitoring, lane departure warning 
systems, and adaptive cruise control systems.
    We have also seen positive movement on education and 
training standards for new professionals entering the trucking 
workforce.
    I applaud the strong collaboration between stakeholders and 
the Federal Motor Carrier Safety Administration on the recently 
released entry-level driver training rule.
    The ELDT-negotiated rulemaking brought stakeholders 
together with the government to broaden theoretical and behind-
the-wheel training metrics for drivers, and I hope to see more 
joint efforts like this in the future.
    I am also proud of the work Congress has done to improve 
trucking safety in the 2015 FAST Act. My legislation, the TRUCK 
Safety Reform Act, which was included in the FAST Act, reformed 
the often controversial and obscure regulatory process at the 
FMCSA to improve outcomes for all stakeholders.
    Because of this measure, FMCSA now needs to conduct a more 
transparent, inclusive, and responsive regulatory process with 
stronger cost-benefit analysis. Data and methodology 
transparency will lead to rules that actually benefit safety.
    Unfortunately, robust analysis has not always been a 
priority for the FMCSA. Just last week, the U.S. Department of 
Transportation released a longstanding study on the efficacy of 
the 2013 Hours of Service rulemaking. This rule mandated that 
drivers rest at night, effectively pushing truck traffic onto 
our roads during the early morning commuting hours. The DOT 
study concluded it could not demonstrate the 2013 Hours of 
Service rule provided, ``a greater net benefit for the 
operational, safety, health, and fatigue impacts.''
    This example demonstrates the need to have safeguards in 
place to avoid ideologically driven rulemakings moving forward. 
Because of these reforms, those seeking safety changes will 
have more clarity from the agency. FMCSA must now prioritize 
and respond to stakeholders' petitions in a timely fashion 
based on the likelihood of safety improvements. This is good 
governance. It will lead to better outcomes and, ultimately, 
greater safety in America's transportation network.
    The FAST Act also included measures to correct FMCSA's 
flawed truck safety scoring system, known as the Compliance, 
Safety, and Accountability Program. For example, in January 
2015 in Cincinnati, Ohio, there was an incident where a bridge 
collapsed on a truck. The CSA system counted this event as the 
fault of the truck driver. Obviously, the carrier was not at 
fault in this instance.
    Thanks to the FAST Act reforms, carriers and their 
customers will now have more confidence in this critical safety 
scoring program.
    Today's hearing is a great opportunity to examine how we 
can improve highway safety through greater innovation, more 
collaboration between our public and private stakeholders, and 
better data and analysis.
    And I would now ask my colleague and friend, Ranking Member 
Senator Cory Booker, if he would like to make comments.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much, Chairman Fischer. This 
is an important hearing, and I am grateful for all of those who 
are assembled here.
    And, Dr. Lund, I hear you're retiring. Sir, I'm sure that 
the Lord looks upon you and says, ``Well done, my good and 
faithful servant.'' This is not an obituary, however, so I'll 
move on with my comments.
    [Laughter.]
    Senator Booker. I think Chairman Fischer has done a great 
job of really emphasizing how vital this trucking industry is 
to our national economy. It is producing so many quality jobs. 
Trucks move a considerable amount of freight tonnage through 
the United States, creating vital links between people, 
businesses, and really helping our Nation to thrive.
    Trucks add a whopping 10 billion tons of freight, more than 
$700 billion in freight revenues. However, the importance of 
trucking means that millions of trucks are traveling billions 
of miles on our roads every single year. It means that 
thousands and thousands of accidents are occurring as well. 
This has resulted in actually seeing tremendous amounts of 
truck-related deaths, about 4,000 deaths, and 100,000 people 
injured, every year. In 2015 alone, about 4,067 people were 
killed in crashes involving trucks, the highest fatality since 
2008. And I know we have some victims' families that are here 
today.
    As the economy has improved, highway deaths that relate and 
include truck-related crashes actually have been rising. This 
is a problem that's not getting better; it's not even stable. 
Unfortunately, we're seeing a frightening increase.
    According to the National Safety Council, preliminary data 
for 2016 estimates as many as 40,000 died in motor vehicle 
crashes last year. That increase is actually an increase of 6 
percent over 2015 and a 14 percent increase in 2014. Again, the 
trend lines are moving in a frightening direction.
    And each one of these deaths, each one of the people killed 
or injured, these represent not data, not statistics, these are 
real families being shattered by these incidents. This is a 
trend that we need to do something about, and I believe we need 
to take action.
    I've actually learned a lot as a Ranking Member on this 
Committee. There are some good folks looking to try to make a 
difference in this area, from trucking companies themselves all 
the way to individuals who are activists in this area. This is 
clearly not a Republican or Democratic area issue. We need to 
come together to find solutions. We need to find ways to fix 
this.
    I believe there are some real steps we can take to address 
this trend. For example, in 2014, an unfortunate tragic 
incident occurred in New Jersey on the New Jersey Turnpike, 
killing one person and severely injuring others. Analysis shows 
that the truck was traveling 20 miles per hour over the speed 
limit, and the driver was very close to hitting their daily 
hours of service. The driver was tired and heading to a 
construction zone when he failed to brake for stopped traffic 
ahead of him.
    The crash highlights a lot of critical issues that we could 
be taking and things we could probably do to prevent these 
tragedies, from investing in new technologies and new 
innovations that help trucks stop, also to having rules that 
keep truck drivers from pushing the bounds of human endurance 
during their work.
    We need to get the best of technology into trucks, 
something I've learned a lot since I've been serving on this 
subcommittee, where some in the industry are leading and some 
are lagging. We need to make sure we are doing everything we 
can to help trucks automatically brake, even when the driver 
might be tired or distracted.
    We need to prevent these tired or impaired drivers from 
getting behind the wheel full stop. We have to have only the 
safest trucks on the road, and that means proper inspections, 
not having faulty brakes or letting longer, heavier trucks onto 
our highways. What we don't need are roadblocks and exemptions 
that make our highways less safe.
    While most drivers and companies--and I've been very 
encouraged by this--do prioritize safety, we continue to have 
very serious problems on our highways. Collectively, as a 
nation, we can't just tolerate, we can't just accept, such high 
levels of carnage on our highways. This can't be normalized. We 
should be committed, as a country, to having much better road 
safety.
    So rolling back the rules, those that are illogical--I 
agree with my Chairperson, I do not think a bridge falling on 
somebody's head is the truck driver's fault. Rolling back 
nonsensical rules I fully support, but we need to make sure we 
do this in an intelligently driven way and that we are 
aggressive in the protection of our highways and protection of 
individuals and families.
    We have real hard work to do. Clearly, the urgency is upon 
us. That means having an open and honest dialogue about the 
impacts of these issues and really understanding the long-term 
impacts of our actions.
    Again, I'm grateful to be serving as a Ranking Member with 
the Chairman. I'm really committed to this issue. And I'm 
grateful that you all are assembled here today to talk about 
something that clearly for American families, businesses, and 
especially those who have lost loved ones, this is a very, very 
important hearing.
    The Chairman. Thank you, Senator Booker.
    With that, I would like to welcome our panel of witnesses 
today. And we will begin with the Honorable Christopher A. 
Hart, who is Chairman of the National Transportation Safety 
Board.
    The Honorable Christopher Hart was appointed as Chairman of 
the Board in 2015. In addition to his work at the NTSB, he has 
served in a number of other safety roles at the National 
Highway Transportation Safety Administration and the Federal 
Aviation Administration.
    So welcome, sir, if you would like to give your opening 
statement, please.

   STATEMENT OF HON. CHRISTOPHER A. HART, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Hart. Thank you very much. Good afternoon, Chairman 
Fischer, Ranking Member Booker, and members of the 
Subcommittee. Thank you for inviting me to testify on behalf of 
the NTSB today. I appreciate Congress's continued attention to 
improving safety on our Nation's roadways.
    Crashes on our roadways claimed more than 35,000 lives in 
2015, with more than 4,000 killed in crashes involving large 
trucks, as you've already heard from the introductory 
statements. That represents 4.1 percent more deaths than in 
2014, and the most lives lost in truck-involved crashes since 
2008, as Ranking Member Booker mentioned.
    In our investigations of commercial truck crashes, we see 
issues that are focused on our Most Wanted List of 
transportation safety improvements. One example is distraction. 
On May 28, 2013, a truck that did not stop at a grade crossing 
in Rosedale, Maryland, was struck by a train, causing a 
derailment and a post-crash fire. The truck driver was 
seriously injured, and three others sustained minor injuries. 
Among the probable causes was the driver's distraction due to a 
hands-free cell phone conversation.
    Another persistent issue is substance impairment. On 
September 26, 2014, near Davis, Oklahoma, a truck crossed a 
median and collided with a bus that was transporting a college 
softball team from Texas, resulting in four fatalities, 
including the truck driver. The probable cause was the truck 
driver's incapacitation that was likely due to synthetic drugs.
    On June 7, 2014, a truck encountered nearly stopped traffic 
in a work zone near Cranbury, New Jersey--this is the accident 
that Ranking Member Booker was referring to--and struck a limo 
van due to the truck driver's fatigue and excessive speed, 
causing a multi-vehicle crash that resulted in one death. That 
truck driver had been awake, he was in compliance with the rest 
and duty time rules, but he had been awake 28 hours prior to 
that crash.
    This crash reinforced the importance of fatigue management 
programs, not just rest and duty time rules, but fatigue 
management programs, as well as collision avoidance systems and 
the need for carriers to collect and analyze data that are 
available to onboard critical event recording systems. These 
and other crashes could have been prevented by the use of 
available safety technologies and by improved oversight of the 
performance of commercial drivers and the condition of 
commercial vehicles by the Federal Motor Carrier Safety 
Administration, FMCSA.
    Many of our investigations identified shortcomings in FMCSA 
oversight of commercial truck operations. We found instances in 
which deficiencies in the compliance review program allowed 
companies with serious safety programs to continue operating.
    The NTSB acknowledges FMCSA's efforts to improve oversight, 
but the task is enormous and the resources are very limited. 
Therefore, it is critical that FMCSA employ a data-driven, 
risk-based approach to oversight responsibilities and address 
the highest risk carriers as well as the highest risk drivers 
and vehicles in order to remove unsafe operators from our 
roadways.
    The FMCSA's Compliance, Safety, and Accountability Program 
that was referred to, CSA Program, must be completed with a 
risk-based intervention approach for safety fitness 
determinations.
    We understand the desire to ensure that inspection and 
violation data represent the full picture of safety, but 
prolonged deferral of a safety fitness determination final rule 
will continue to allow unsafe, high-risk carriers to operate 
without intervention, posing significant risk to the motoring 
public and to those who live or work along commercial trucking 
routes.
    Carriers must move beyond regulatory compliance and 
proactively identify operational hazards and potential 
solutions. Many such solutions are widely available in the form 
of lifesaving technologies.
    For decades, NTSB has been recommending technologies on all 
commercial trucks that, if used, would save lives and prevent 
crashes. These include forward-collision avoidance systems, 
speed-limiting devices, electronic logging devices, and event 
data recorders, as you heard in the Chairman's comments. These 
technologies are among many that can improve safety, and we 
believe carriers should voluntarily adopt them to enhance the 
safety of their operations and the safety of the traveling 
public.
    Improving the safety of commercial truck operations will 
save lives and improve public confidence in this vital and 
visible industry. This is a multifaceted issue involving 
vehicles, companies, drivers, regulatory agencies, and 
Congress. Any effort to strengthen commercial trucking safety 
must be collaborative in order to be successful, and the 
Chairman mentioned several examples of that collaboration.
    So I appreciate your interest in these issues. Thank you 
for the opportunity to testify. I would be happy to take any 
questions you might have. Thank you.
    [The prepared statement of Mr. Hart follows:]

        Prepared Statement Hon. Christopher A. Hart, Chairman, 
                  National Transportation Safety Board
    Good afternoon Chairman Fischer, Ranking Member Booker, and the 
Members of the Subcommittee. Thank you for inviting the National 
Transportation Safety Board (NTSB) to testify before you today.
    The NTSB is an independent Federal agency charged by Congress with 
investigating every civil aviation accident and significant incidents 
in the United States and significant accidents and incidents in other 
modes of transportation--highway, rail, marine, and pipeline. The NTSB 
determines the probable cause of accidents and other transportation 
events and issues safety recommendations aimed at preventing future 
accidents. In addition, the NTSB carries out special studies concerning 
transportation safety and coordinates the resources of the Federal 
government and other organizations assisting victims and their family 
members impacted by major transportation disasters.
    Since its inception, the NTSB has investigated more than 1,400 
highway accidents, including accidents that involved commercial trucks. 
On call 24 hours a day, 365 days a year, NTSB highway investigators 
travel throughout the country to investigate significant accidents and 
develop factual records and safety recommendations with one aim--to 
ensure that such accidents never happen again.
    To date, we have issued more than 2,400 safety recommendations as a 
result of highway accident investigations, with approximately 80 
percent adopted or implemented. Because we have no authority to 
regulate the transportation industries, our effectiveness depends on 
our reputation for conducting thorough, accurate, and independent 
investigations and for producing timely, well-considered 
recommendations to enhance transportation safety.
    On November 14, 2016, the NTSB announced its Most Wanted List of 
transportation safety improvements for 2017-2018.\1\ This list 
identifies our top 10 areas for transportation safety improvements. We 
develop our Most Wanted List based on safety issues we identify as a 
result of our accident investigations. While we removed ``Strengthen 
Commercial Trucking Safety'' from our 2016 Most Wanted List, our 2017-
2018 priority areas include seven items that affect the safety of 
commercial trucking operations:
---------------------------------------------------------------------------
    \1\ National Transportation Safety Board, 2017-2018 Most Wanted 
List (Washington, D.C.: National Transportation Safety Board, 2016).

---------------------------------------------------------------------------
  <bullet> Increase Implementation of Collision Avoidance Technologies

  <bullet> Expand Recorder Use to Enhance Safety

  <bullet> End Alcohol and Other Drug Impairment in Transportation

  <bullet> Require Medical Fitness

  <bullet> Strengthen Occupant Protection

  <bullet> Reduce Fatigue Related Accidents

  <bullet> Eliminate Distractions

    Each of these Most Wanted List issues emphasizes the need for 
critical actions by the U.S. Department of Transportation (DOT), the 
Federal Motor Carrier Safety Administration (FMCSA), the National 
Highway Traffic Safety Administration (NHTSA), states, manufacturers, 
operators, associations, and others. Commercial trucking is integral to 
our economy, yet crashes, injuries, and deaths involving commercial 
trucks have been increasing over the past several years. In 2015 alone, 
more than 4,000 people were killed in crashes involving large trucks, 
4.1 percent more fatalities than in 2014, and the highest since 
2008.\2\ Our 2017-2018 Most Wanted List demonstrates that more needs to 
be done to ensure the safety of commercial truck operations.
---------------------------------------------------------------------------
    \2\ National Center for Statistics and Analysis, 2015 Motor Vehicle 
Crashes: Overview, Report No. DOT HS 812 318 (Washington, D.C.: 
National Highway Traffic Safety Administration, 2016).
---------------------------------------------------------------------------
    Commercial trucking safety gained national media attention on June 
7, 2014 when comedian Tracy Morgan was critically injured and another 
passenger died in a crash in Cranbury, New Jersey.\3\ The limousine bus 
in which they were traveling was struck by a truck-tractor and 
semitrailer combination vehicle, due to the truck driver's fatigue and 
excessive speed. While it was the uncommon involvement of a celebrity 
that focused national attention on this crash, crashes involving 
commercial trucks are all too common.
---------------------------------------------------------------------------
    \3\ National Transportation Safety Board, Multivehicle Work Zone 
Crash on Interstate 95 in Cranbury, New Jersey on June 7, 2014, Rpt. 
No. HAR-15/02 (Washington, D.C.: National Transportation Safety Board, 
2015).
---------------------------------------------------------------------------
    Other NTSB investigations completed in the past four years 
involving commercial trucks include:

  <bullet> On June 25, 2015, a truck-tractor in combination with a 
        semitrailer collided with the rear of several cars on 
        Interstate 75 in a work-zone, near Chattanooga, Tennessee. Of 
        the 18 vehicle occupants, six died and four were injured. Our 
        investigation determined the probable cause of the crash to be 
        the truck driver's fatigue, drug use, and excessive speed.\4\
---------------------------------------------------------------------------
    \4\ National Transportation Safety Board, Multivehicle Work Zone 
Crash on Interstate 75 in Chattanooga, Tennessee on June 25, 2015, Rpt. 
No. HAR-16/01 (Washington, D.C.: National Transportation Safety Board, 
2016).

  <bullet> On September 26, 2014, a truck-tractor in combination with a 
        semitrailer crossed a median and collided with a 32-passenger-
        size bus--transporting 15 members of a college softball team--
        near Davis, Oklahoma, resulting in four fatalities. We 
        determined that the probable cause of this accident was the 
        truck driver's incapacitation likely due to his use of 
        synthetic drugs.\5\
---------------------------------------------------------------------------
    \5\ National Transportation Safety Board, Truck-Tractor Semitrailer 
Median Crossover Collision with Medium-Size Bus on Interstate 35 in 
Davis, Oklahoma on September 26, 2014, Rpt. No. HAR-15/03 (Washington, 
D.C.: National Transportation Safety Board, 2015).

  <bullet> On April 10, 2014, a tractor-trailer crossed a median and 
        collided with a motorcoach in Orland, California, that took 10 
        lives and injured 40 others. Our investigation into the 
        probable cause of this accident was impeded by the lack of an 
        event data recorder.\6\
---------------------------------------------------------------------------
    \6\ National Transportation Safety Board, Truck-Tractor Double 
Trailer Median Crossover Collision with Motorcoach and Postcrash Fire 
on Interstate 5 in Orland, California on April 10, 2014, Rpt. No. HAR-
15/01 (Washington, D.C.: National Transportation Safety Board, 2015).

  <bullet> On May 28, 2013, a three-axle roll-off straight truck did 
        not stop at a highway-railroad grade crossing in Rosedale, 
        Maryland and was struck by a freight train, causing a 
        derailment. A postcrash fire resulted in an explosion that 
        shattered windows and damaged property as far as approximately 
        one-half mile from the site. The truck driver was seriously 
        injured in the collision, and three others received minor 
        injuries as a result of the explosion. Among the probable 
        causes of the accident were the truck driver's distraction due 
        to a hands-free cell phone conversation and inadequate 
        oversight of the carrier by the FMCSA.\7\
---------------------------------------------------------------------------
    \7\ National Transportation Safety Board, Highway-Railroad Grade 
Crossing Collision in Rosedale, Maryland on May 28, 2013, Rpt. No. HAR-
14/02 (Washington, D.C.: National Transportation Safety Board, 2014).

  <bullet> On March 3, 2013, truck-tractor in combination with a 
        semitrailer struck the rear of an SUV and pushed it into 
        another passenger vehicle on Interstate 65, near Elizabethtown, 
        Kentucky. A postcrash fire ensued, killing six of the SUV's 
        eight occupants. A review of the truck driver's logbook 
        indicated that he had driven beyond the legal hours of service 
        and was likely fatigued at the time of the crash.\8\
---------------------------------------------------------------------------
    \8\ NTSB public docket (HWY13FH008).

    The NTSB has a long history of calling on the regulators, the FMCSA 
and NHTSA, to improve their oversight of operators, drivers, and 
vehicles. It starts with improving the system for determining a 
trucking company's safety compliance, including both driver and vehicle 
factors. Stronger oversight is needed to ensure that carriers address 
any safety deficiencies in a timely manner and are swiftly placed out 
of service if they fail to improve. To address vehicle factors, 
regulators must promote proper fleet maintenance and proven life-saving 
technology. Vehicle inspections should be required during compliance 
reviews, and vehicle safety equipment and technology, such as collision 
avoidance systems, should be mandated across the entire industry.
Oversight of Commercial Truck Operations
    Many of our investigations have identified shortcomings in the 
FMCSA's oversight of commercial truck operations. We have found 
instances in which deficiencies in the FMCSA compliance review program 
allowed companies with serious safety problems to continue operations. 
The NTSB readily acknowledges the FMCSA's efforts to make improvements 
to its oversight of commercial truck operations. Yet, the crashes that 
the NTSB investigates attest to the fact that more oversight 
improvements and additional resources are needed to prevent future 
crashes involving commercial trucks.
    The two most important areas related to safe motor carrier 
operations are the performance of drivers and the condition of 
vehicles. The NTSB believes that the FMCSA should emphasize both of 
these critical elements in its compliance reviews and disqualify an 
operator that receives an unsatisfactory rating in either vehicle or 
driver areas. The current compliance review process is inadequate and 
limits the FMCSA's ability to remove unsafe carriers from our highways 
before they are involved in catastrophic crashes.
    In 2013, the NTSB investigated four commercial motor vehicle 
crashes, which together resulted in 25 deaths and 83 injuries. Data 
collected for each motor carrier presented ``red flags'' that should 
have led to strong intervention by the FMCSA. In each case, FMCSA 
safety investigators had visited the company prior to the crash and 
given it a clean bill of health. Immediately following each crash--and 
after an NTSB investigation--the FMCSA found significant safety 
deficiencies. In three of the four cases, declared the company an 
imminent hazard, and placed it out of service. As a result of these 
NTSB investigations, we made two recommendations to the DOT in November 
2013 to conduct an internal audit of the FMCSA's compliance review 
processes.\9\
---------------------------------------------------------------------------
    \9\ H-13-039 and -040, November 5, 2013.
---------------------------------------------------------------------------
    On February 3, 2014, the DOT convened an independent review team 
(IRT) comprised of members of the DOT's Safety Council to conduct a 
review of the FMCSA's compliance review process. NTSB leaders met with 
IRT members on several occasions to assist them in their review. The 
final report was released on July 15, 2014.\10\ Among its 
recommendations to the FMCSA, the IRT urged that it make changes to the 
Compliance, Safety, Accountability Program (CSA), improve the Safety 
Measurement System (SMS), and move beyond a compliance-centric 
enforcement model. The IRT report provided actionable information in 
response to our recommendations, but it also provided insights and 
perspectives on other ways the FMCSA can improve motor carrier safety.
---------------------------------------------------------------------------
    \10\ Independent Review Team Appointed by the Secretary of 
Transportation, Blueprint for Safety Leadership: Aligning Enforcement 
and Risk (Washington, D.C.: U.S. Department of Transportation, 2014).
---------------------------------------------------------------------------
    The IRT report confirmed that the FMCSA needs to better align 
compliance and enforcement processes with the safety risks that cause 
crashes. We recognize that the CSA program is designed to do that, but 
it has been only partially implemented. In some instances, compliance 
reviews focus on issues quite different from those that may have 
triggered the need for greater scrutiny. This disconnect affects the 
FMCSA's everyday operations.
    The FMCSA's safety fitness determination (SFD) rulemaking is 
intended to remedy this disconnect. On January 21, 2016, the FMCSA 
published a Notice of Proposed Rulemaking (NPRM), ``Carrier Safety 
Fitness Determination,'' proposing to amend the Federal Motor Carrier 
Safety Regulations (FMCSRs) to revise the current methodology for 
issuing SFDs for motor carriers and rely more on roadside inspection 
and violation data in the SMS rather than on-site compliance 
reviews.\11\ The proposed new methodologies would result in an SFD 
based on the carrier's SMS data in five of the seven Behavior Analysis 
and Safety Improvement Categories (BASIC) (unsafe driving, crash 
indicator, hours of service compliance, vehicle maintenance, controlled 
substances/alcohol, hazardous materials compliance, and driver 
fitness), an investigation, or a combination of on-road safety data and 
investigative information. In addition, the NPRM proposed to eliminate 
the current three-tier rating system (i.e., satisfactory-conditional-
unsatisfactory) for determining safety fitness in favor of a single 
determination of ``fit'' or ``unfit.'' SMS data for commercial truck 
operations are an important risk-management tool, and, if made publicly 
available, could provide the public with much-needed information about 
the commercial truck operators that fail to meet safety requirements, 
much like the FMCSA's ``SaferBus'' mobile application for bus 
operators.
---------------------------------------------------------------------------
    \11\ 81 Federal Register 3561.
---------------------------------------------------------------------------
    The NTSB has long supported a risk-based intervention approach, 
such as the proposed SFD rule, to identify those carriers that pose the 
greatest risk to the motoring public. In 1999, we recommended that the 
safety fitness rating methodology be changed so that adverse vehicle 
and driver performance-based data alone are sufficient to result in an 
overall unsatisfactory rating for the carrier.\12\ In 2012, following 
the NTSB's investigation of a 15-fatality motorcoach crash in New York 
City,\13\ we recommended that, as part of CSA, the FMCSA include SMS 
rating scores in the methodology used to determine a carrier's fitness 
to operate.\14\ The NTSB is very concerned that implementing the SFD 
proposed rule could be delayed.
---------------------------------------------------------------------------
    \12\ H-99-006, February 26, 1999.
    \13\ National Transportation Safety Board, Motorcoach Run-Off-the-
Road and Collision With Vertical Highway Signpost on Interstate 95 
Southbound in New York City, New York on March 12, 2011, Rpt. No. HAR-
12/01 (Washington, D.C.: National Transportation Safety Board, 2012).
    \14\ H-12-017, July 12, 2012.
---------------------------------------------------------------------------
    More than 17 years have passed since we first called attention to 
problems with the FMCSA's compliance review process in 1999, and the 
oversight program remains dysfunctional. The task facing the FMCSA is 
enormous and its resources are limited; therefore, it is critical that 
the FMCSA employ a data-driven approach to address the highest risk 
motor carriers, drivers, and vehicles. Prolonged deferral of a SFD 
final rule will allow many unsafe, high-risk carriers to operate on our 
highways without intervention, posing a significant risk to the 
motoring public.
Moving Beyond Compliance: Leveraging Technology
    The NTSB believes that it is vitally important for the FMCSA to 
move beyond its focus on conducting compliance reviews and embrace a 
broader and more balanced portfolio of safety tools. Commercial 
trucking is a diverse segment of the economy, and trucking companies 
range from thousands of trucks to single-truck owner operators. The 
FMCSA and NHTSA regulations establish minimum requirements, not the 
gold standard. The NTSB has found that crashes happen even when an 
operator is doing everything ``by the book.'' To manage their safety 
risks, trucking companies must go beyond securing regulatory compliance 
from all their employees, and proactively identify operational hazards 
and potential solutions.
    As required by the 2015 Fixing America's Surface Transportation 
(FAST) Act,\15\ the FMCSA published a request for comments on April 20, 
2016 on a proposed ``Beyond Compliance Program.'' \16\ The Beyond 
Compliance Program would provide recognition, either through credit 
recognized by a new Beyond Compliance BASIC or an improved SMS 
percentile, for a motor carrier that: (1) installs advanced safety 
equipment; (2) uses enhanced driver fitness measures; (3) adopts fleet 
safety management tools, technologies, and programs; or (4) satisfies 
other standards determined appropriate by the FMCSA. The Beyond 
Compliance Program would incentivize a motor carrier to implement 
programs or safety interventions that exceed the scope of regulatory 
requirements and would improve the safety of commercial motor vehicles 
and drivers operating on the Nation's highways.
---------------------------------------------------------------------------
    \15\ Pub. L. 114-94, Section 5222.
    \16\ 81 Federal Register 23351.
---------------------------------------------------------------------------
    The NTSB commends the FMCSA for considering the development of a 
program that looks beyond regulatory mandates to promote highway safety 
and aims to speed the adoption of lifesaving technologies and safety 
programs. Currently, many carriers voluntarily implement programs and 
technologies to enhance the safety of their drivers and the traveling 
public. A Beyond Compliance Program will reward such companies and 
encourage others to adopt safer operating practices.
    For decades, the NTSB has been investigating highway crashes and 
making recommendations for technologies that, if implemented, would 
save lives and prevent future crashes. These technologies include 
forward collision avoidance systems, speed limiting devices, electronic 
logging devices (ELDs), and event data recorders (EDRs). We believe 
that forward collision avoidance systems and speed limiting devices 
should be standard on all commercial trucks and have recommended that 
NHTSA change the Federal Motor Vehicle Safety Standards (FMVSS) to 
require them. In addition, we have called on the FMCSA to require motor 
carriers to install ELDs and EDRs. These technologies are among many 
that can improve commercial truck safety, and including them in a 
Beyond Compliance Program would be a positive measure. However, the 
NTSB expects that NHTSA and the FMCSA will continue their efforts to 
mandate safety technologies so that ultimately those companies that are 
unwilling to invest in safety voluntarily will be required to use these 
proven technologies. While working toward requiring these technologies, 
the FMCSA should also encourage their use through its Beyond Compliance 
Program.
Forward Collision Avoidance Systems
    ``Increase Implementation of Collision Avoidance Technologies'' is 
one of the safety improvement issues on our 2017-2018 Most Wanted List, 
and was carried over from 2016.\17\ Broad deployment of forward 
collision avoidance systems in commercial trucks is necessary to reduce 
the severity of rear-end crashes. These technologies act as a fail-
safe, helping to compensate for driver error, inattention, fatigue or 
just bad decision making. Forward collision avoidance systems typically 
consist of (1) collision warning that alerts a driver of the impending 
crash, and (2) autonomous emergency braking (AEB) that automatically 
applies brakes. Collision avoidance technologies can reduce fatalities 
and injuries over the long term. In 2012, NHTSA predicted that AEB 
(meeting certain requirements) could prevent 13,000 to 28,000 minor 
injuries and 500 to 700 serious injuries from rear-end crashes, and 
could save as many as 65 lives each year.\18\
---------------------------------------------------------------------------
    \17\ National Transportation Safety Board, Increase Implementation 
of Collision Avoidance Technologies (Washington, D.C.: National 
Transportation Safety Board, 2016).
    \18\ National Highway Traffic Safety Administration, Forward-
Looking Advanced Braking Technologies Research Report (Washington, 
D.C.: U.S. Department of Transportation, 2014).
---------------------------------------------------------------------------
    The NTSB has long encouraged technological countermeasures to 
prevent or mitigate crashes. We made our first recommendation 
pertaining to collision avoidance technologies in 1995 and asked the 
DOT to begin testing collision warning systems within commercial motor 
carrier fleets.\19\ Due to a lack of progress in addressing this issue, 
this recommendation was classified ``Closed--Unacceptable Action'' in 
1999. In 2001, we released a special investigative report (SIR) that 
focused on how collision avoidance technologies could mitigate or 
prevent passenger and commercial vehicle rear-end crashes.\20\ As a 
result of the SIR's findings, we issued 10 recommendations pertaining 
to collision avoidance technologies, including a recommendation that 
NHTSA require that all new commercial vehicles be equipped with a 
collision warning system after promulgating performance standards for 
collision warning systems for commercial vehicles.\21\
---------------------------------------------------------------------------
    \19\ H-95-044, December 13, 1995.
    \20\ National Transportation Safety Board, Vehicle-and 
Infrastructure-based Technology for the Prevention of Rear-End 
Collisions, Rpt. No. SIR-01/01 (Washington, D.C.: National 
Transportation Safety Board, 2001).
    \21\ H-01-007, May 25, 2001.
---------------------------------------------------------------------------
    We updated the SIR in 2015 due to a lack of progress in the 
implementation of NTSB recommendations intended to mitigate or prevent 
rear-end crashes, the recent technological advancements in collision 
avoidance technologies, and the continued prevalence of rear-end 
crashes.\22\ The 2015 report found that currently available forward 
collision avoidance technologies for passenger and commercial vehicles 
show clear benefits that could reduce rear-end crash fatalities. 
However, more must be done to speed up deployment of these technologies 
in all vehicle types. As a result of these findings, the NTSB made six 
new recommendations, including calling upon NHTSA to expand or develop 
protocols for the assessment of forward collision avoidance systems in 
passenger and commercial vehicles, and calling upon manufacturers to 
install forward collision avoidance systems as standard features on all 
newly manufactured passenger and commercial motor vehicles.\23\ The 
NTSB also issued a companion Safety Alert for consumers and commercial 
fleet owners urging them to consider purchasing vehicles with collision 
warning and autonomous emergency braking functions.\24\
---------------------------------------------------------------------------
    \22\ National Transportation Safety Board, The Use of Forward 
Collision Avoidance Systems to Prevent and Mitigate Rear-End Crashes, 
Rpt. No. SIR-15/01 (Washington, D.C.: National Transportation Safety 
Board, 2015).
    \23\ H-15-005, H-15-008 and -009, June 8, 2015.
    \24\ National Transportation Safety Board, Forward Collision 
Avoidance Systems Can Save Lives, No. SA-046 (Washington, D.C.: 
National Transportation Safety Board, 2015).
---------------------------------------------------------------------------
    Commercial truck manufacturers and operators should not wait to be 
required by regulators to equip and utilize heavy trucks with forward 
collision avoidance systems. Rather, a Beyond Compliance Program could 
provide incentive for operators to use such technologies in their 
fleet.
Speed Limiting Devices
    On September 7, 2016, NHTSA and the FMCSA published a joint NPRM, 
which proposed a new FMVSS requiring that each new multipurpose 
passenger vehicle, truck, bus, or school bus with a gross vehicle 
weight rating of more than 26,000 pounds be equipped with a speed 
limiting device.\25\ The proposed FMVSS would also require each 
vehicle, as manufactured and sold, to have its device set to a speed 
not greater than a specified speed and to be equipped with means of 
reading the vehicle's current speed setting and the two previous 
settings through its On-Board Diagnostic connection. In addition, the 
FMCSA is proposing a complementary FMCSR to require devices meeting the 
requirements of the proposed FMVSS. Motor carriers operating such 
vehicles in interstate commerce would be required to maintain the speed 
limiting devices for the service life of the vehicle.
---------------------------------------------------------------------------
    \25\ Federal Motor Vehicle Safety Standards; Federal Motor Carrier 
Safety Regulations; Parts and Accessories Necessary for Safe Operation; 
Speed Limiting Devices, 81 Federal Register 61942.
---------------------------------------------------------------------------
    Crashes, fatalities, and injuries involving heavy commercial 
vehicles operating at high speed, are the leading driver-related factor 
in large truck crashes. Between 2012 and 2014, speeding was identified 
as a factor in 21 to 24 percent of fatal truck crashes in which a 
driver-related factor was recorded.\26\ The NPRM estimates that 
requiring heavy vehicles to be equipped with a speed limiting device 
set at 65 mph, would save 63 to 214 lives annually.
---------------------------------------------------------------------------
    \26\ Federal Motor Carrier Safety Administration, Large Truck and 
Bus Crash Facts 2014, No. FMCSA-RRA-16-001 (Washington, D.C.: Federal 
Motor Carrier Safety Administration, 2016).
---------------------------------------------------------------------------
    Beyond affecting crash severity, excessive speed can influence 
driver performance. As vehicle speed increases, so does the distance 
traveled while the driver's brain is processing roadway information. 
Consequently, the rate at which a driver must process information about 
the highway and its environment increases directly with increasing 
travel speed. Once the information processing demands exceed the 
processing capabilities of the driver, a crash is likely to occur. 
Additionally, at higher speeds, large trucks and buses become more 
difficult to maneuver--especially on corners, curves, or where evasive 
action is required. Compared to passenger vehicles, commercial trucks 
and buses have reduced maneuverability; greater propensity to roll, due 
to higher centers of mass; and reduced braking efficiency. The NTSB has 
investigated numerous large truck and bus crashes in which the 
initiating event was a mechanical deficiency (for example, tire or 
brake failure). In such cases, drivers are less likely to regain 
control of a heavy vehicle after experiencing a mechanical failure when 
operating at higher speeds.
    Managing the top speed of heavy vehicles is also necessary to 
ensure compatibility with the roadway environment and infrastructure. 
In several investigations, the NTSB has found that roadside barriers, 
such as median barriers, were unable to retain or redirect heavy 
vehicles involved in run-off-road crashes. For example, in 2010, a 
truck-tractor in combination with a 53-foot-long van semitrailer was 
traveling south on Interstate 65 near Munfordville, Kentucky, when it 
departed the left lane, traveled across the median, struck and overrode 
the median barrier, and entered the northbound travel lanes. The truck 
collided with a 15-passenger van, killing the truck driver, the van 
driver, and nine van passengers.\27\ We found that the median barrier's 
inability to retain the truck contributed to the severity of the 
accident.
---------------------------------------------------------------------------
    \27\ National Transportation Safety Board, Truck-Tractor 
Semitrailer Median Crossover Collision with 15-Passenger Van in 
Munfordville, Kentucky on March 26, 2010, Rpt. No. HAR-11/02 
(Washington, D.C.: National Transportation Safety Board, 2011).
---------------------------------------------------------------------------
    Although electronic engine control unit (ECU)-based speed limiters 
prevent vehicles from exceeding a set maximum speed, they do not (1) 
prevent speeding in locations where the speed limit is lower than the 
governed speed, or (2) stop vehicles from exceeding the governed speed 
when traveling downhill. Furthermore, because the majority of speeding-
related heavy vehicle crashes involve heavy vehicles traveling at 
unsafe speeds for the conditions, such as speed-restricted areas, 
traffic-congested areas, or poor weather conditions, rather high rates 
of speed above 65 mph, the NTSB preference would be for NHTSA to 
develop a rulemaking requiring that all newly manufactured heavy 
vehicles be equipped with advanced speed limiting technology, such as 
variable speed limiters and intelligent speed adaption devices. The 
current NPRM clearly describes how the severity of a heavy vehicle 
crash increases with travel speed and outlines the safety benefits of 
ECU-based speed limiters.
    The NTSB is pleased that NHTSA and the FMCSA are working together 
to develop regulations to limit the speed of heavy vehicles as a means 
of reducing the severity of crashes and the resulting fatalities and 
injuries. The NTSB supports the proposed rulemaking as an interim step 
toward an eventual requirement that all newly manufactured heavy 
vehicles be equipped with advanced speed limiting technology.
Electronic Logging Devices
    For more than 45 years, our investigations have identified fatigue 
as a cause, contributing factor, or finding in crashes across all 
transportation modes. Fatigue-related accidents can be avoided with a 
combination of science-based regulations, comprehensive fatigue risk 
management programs, and individual responsibility. For commercial 
carriers, the NTSB has advocated the use of logging devices to allow 
better monitoring of hours-of-service (HOS) and driver fatigue for over 
25 years. Most recently, in 2007, the NTSB recommended that the FMCSA 
require all interstate commercial vehicle carriers to use electronic 
on-board devices that collect and maintain data concerning driver HOS 
and, as an interim measure, prevent log tampering and submission of 
false paper logs.\28\ Properly designed, used, and maintained ELDs 
enable drivers, motor carriers, and authorized safety officials to 
track on-duty driving hours more effectively and accurately, thus 
preventing both inadvertent and deliberate HOS violations. Compliance 
with the HOS regulations helps ensure that drivers have time to obtain 
restorative rest, enabling them to operate their commercial motor 
vehicles more safely.
---------------------------------------------------------------------------
    \28\ H-07-041 and -042, December 17, 2007.
---------------------------------------------------------------------------
    On December 16, 2015, the FMCSA published its final rule, 
``Electronic Logging Devices and Hours of Service Supporting 
Documents.'' \29\ Although this rule is not the universal mandate that 
we recommended, we recognize that it represents significant progress 
toward improving HOS compliance and safety by mandating ELDs for most 
motor carrier operations. By extending the population of affected 
drivers, establishing technical specifications for reliable ELD 
performance and tamper-resistance, clarifying the supporting documents 
requirement and making it applicable to all drivers currently required 
to prepare HOS records of duty status, and adopting anti-harassment 
provisions to protect drivers, this rule constitutes an acceptable 
alternate method of satisfying the recommended actions. Accordingly, we 
classified our Safety Recommendations H-07-41 and -42 ``Closed--
Acceptable Alternate Action.'' As we continue to link the cause of 
fatigue-related crashes to HOS violations, we encourage the FMCSA to 
consider further expansion of the mandate in the future to include the 
remaining driver population that is currently exempt from the new ELD 
requirements, and until then, to include ELD in a Beyond Compliance 
Program.
---------------------------------------------------------------------------
    \29\ 80 Federal Register 78292.
---------------------------------------------------------------------------
Event Data Recorders
    Recorders--data, audio/voice, and video--capture and store critical 
information that can help investigators determine the cause of a crash 
and help companies and operators take proactive steps toward 
prevention. Yet, most trucks and buses are still not equipped with 
these critical technologies, even though recorders are readily 
available, easily installed, and largely affordable. For this reason, 
``Expand Recorder Use to Increase Safety'' is one of the safety 
improvement issue areas on our 2017-2018 Most Wanted List; it was also 
carried over from our 2016 Most Wanted List.\30\
---------------------------------------------------------------------------
    \30\ National Transportation Safety Board, Expand Recorder Use to 
Increase Safety (Washington, D.C.: National Transportation Safety 
Board, 2016).
---------------------------------------------------------------------------
    Various types of recorders can be useful. EDRs capture critical 
vehicle information about the vehicle and occupants for a brief period 
of time (seconds, not minutes) before, during, and after a crash. EDRs 
may record a wide range of data elements, such as whether the brakes 
were applied, vehicle speed at the time of impact, steering angle, and 
whether seat belts were being used at the time of the crash. Image/
video event recorders--both inward- and forward-facing--show the driver 
and environment immediately before, during, and after an event.
    We routinely use recorder data after an accident to determine what 
went wrong, how the vehicle occupants died or were injured, and the 
safety devices and systems employed. We have seen many cases, however, 
in which a lack of data hampered us from understanding the true cause 
of the crash. The 2014 Orland, California crash involving a truck-
tractor in combination with two trailers, a motorcoach, and a passenger 
motor vehicle is an example where inward-facing video and vehicle 
information, such a brake and throttle input, could have given us the 
information we needed; however, we were ultimately forced to conclude 
that the crash occurred for reasons that could not be established from 
available information.
    Recorders not only help investigators determine the cause of a 
crash, but, perhaps more importantly, they help companies and operators 
establish effective safety management strategies. Data from recorders 
can be used to adjust procedures and enhance crew training to prevent 
crashes from happening in the first place. Although some operators have 
implemented or are in the process of implementing recorder programs and 
systems, many are slow to do so without regulatory requirements.
    The NTSB has a long history of advocating technology to record 
crash data in highway transportation, dating back to 1990. To date, 
NHTSA has failed to develop standards or require the use of EDRs for 
heavy vehicles, including truck-tractor units, despite NTSB safety 
recommendations to do so.\31\ We firmly believe that, due to a lack of 
standards and requirements for heavy vehicle EDRs, crash data essential 
to better understanding collisions continue to go unrecorded, thus 
impeding improvements in highway safety. The NTSB will continue to 
recommend that NHTSA take action in this important area.
---------------------------------------------------------------------------
    \31\ H-99-054, November 2, 2999; H-10-007, July 8, 2010; H-10-014 
and H-10-015, October 21, 2010.
---------------------------------------------------------------------------
    The NTSB has also called on the FMCSA to require motor carriers to 
install video event recorders (VERs).\32\ Additionally, the FMCSA 
should require all heavy commercial trucks to be equipped with VERs 
that capture data in connection with the driver and the outside 
environment, including the roadway, in the event of a crash or sudden 
deceleration event. The device should create recordings that are easily 
accessible for review when conducting efficiency testing and system-
wide performance monitoring programs. Motor carriers should be required 
to review and use VER information in conjunction with other performance 
data to verify that driver actions are in accordance with company and 
regulatory safety rules and procedures.
---------------------------------------------------------------------------
    \32\ H-10-010 and -011, October 21, 2010.
---------------------------------------------------------------------------
    The NTSB believes video event recorders are often the best way to 
determine what happened in a crash. For example, on March 3, 2015, the 
NTSB released a safety report, ``Commercial Vehicle Onboard Video 
Systems,'' that discussed two recent crashes where continuous video 
systems were installed on commercial vehicles and proved to be 
extremely useful in evaluating the circumstances leading to a crash and 
providing critical vehicle dynamics and occupant kinematics data for 
assessing crash survivability.\33\ The FMCSA should encourage the use 
of VER technology in a Beyond Compliance Program.
---------------------------------------------------------------------------
    \33\ National Transportation Safety Board, Commercial Vehicle 
Onboard Video Systems, Rpt. No. SR-15/01 (Washington, D.C.: National 
Transportation Safety Board, 2015).
---------------------------------------------------------------------------
Conclusion
    We rely on commercial trucks to deliver food and goods to our local 
grocery stores, medical supplies to our pharmacies and hospitals, and 
packages to our loved ones. Trucks and truckers are integral to our 
economy. But because of their sheer size, weight and physical 
properties, commercial trucks introduce a disproportionate hazard to 
passenger vehicle occupants in a crash. Improving the safety of 
commercial truck operations will not only save lives, but improve the 
public's confidence in this vital and visible industry. Commercial 
truck safety is a multifaceted issue involving the vehicles, the 
companies that operate them, the drivers, the oversight agencies, and 
Congress. Any successful effort to strengthen commercial trucking 
safety must be a collaborative effort.
    The FMCSA has demonstrated enthusiasm to implement positive change. 
Even while the IRT review was underway, the FMCSA proactively made 
program changes based on the feedback it was receiving from the IRT. 
The FMCSA has already fulfilled several IRT recommendations, including 
enhancing training for its investigators and improving the use of data 
to better assess motor carrier risk factors. The FMCSA is to be 
commended for its responsiveness and willingness to learn from tragedy 
to avoid future tragic accidents. But, much work remains to be 
accomplished.
    Thank you for the opportunity to testify before you today. I look 
forward to responding to your questions.

    The Chairman. Thank you, Chairman Hart.
    Next we have Captain Chris Turner. He is the Commander of 
Troop I of the Kansas Highway Patrol and Vice President of the 
Commercial Vehicle Safety Alliance. In his current role, he 
oversees the inspection of commercial vehicles and drivers as 
well as overseeing inspection resources, such as weigh station 
personnel and mobile units.
    Welcome, sir.

              STATEMENT OF CHRIS TURNER, CAPTAIN,

        KANSAS CITY HIGHWAY PATROL, AND VICE PRESIDENT,

               COMMERCIAL VEHICLE SAFETY ALLIANCE

    Captain Turner. Good afternoon, Chairman Fischer, Ranking 
Member Booker, and members of the Subcommittee. Thank you for 
inviting me to participate in today's hearing.
    My name is Chris Turner, and I am in charge of the Kansas 
Highway Patrol's Commercial Motor Vehicle Enforcement, and I 
serve as the Vice President of the Commercial Vehicle Safety 
Alliance, representing state and provincial agencies who 
enforce commercial motor carrier safety regulations in the 
U.S., Canada, and Mexico.
    Today's topic is particularly meaningful to us, charged 
with keeping the Nation's roadways safe. We take that mission 
seriously, and I appreciate the opportunity to share our 
thoughts on how to continue to improve CMV safety.
    I want to stress that the vast majority of motor carriers 
and operators are safe and they're responsible. However, in 
order to keep unsafe vehicles and drivers off the roads, we 
have to focus on how best to combat the efforts of the less 
safety-minded entities.
    In order to do that, states need stable, long-term, 
reliable funding that is commensurate with the responsibilities 
the states are tasked with under the Motor Carrier Safety 
Assistance Program. We rely on Federal funds authorized in the 
highway bill and appropriated each year to help implement our 
states' CMV safety programs, and these programs include 
educational outreach to adults and teen drivers, enforcement on 
CMVs and individuals driving unsafely around CMVs, vehicle and 
driver inspections, compliance reviews, and safety audits.
    And, unfortunately, we are dealing with an issue directly 
related to the current Continuing Resolution. Because of a 
technical error in the CR, states stand to lose a total of $112 
million in MCSAP funding this fiscal year, which is a third of 
the program's funding. If the funding issue is left unresolved, 
many states will be forced to severely scale back critical CMV 
education, enforcement, and inspection activities.
    We urge Members of this Committee to reach out to your 
colleagues on Appropriations in support of a full 
appropriations bill at FAST Act levels. If a Continuing 
Resolution is necessary, it is imperative that the MCSAP 
section be corrected. And my written statement provides 
additional details on this issue.
    We must find a way to provide states with reliable, long-
term funding; otherwise, state governments might decide that 
their manpower and resources are better spent elsewhere and not 
begin reducing--or, excuse me--and begin reducing or even 
shutting down CMV units. With fatalities on the Nation's 
highways on the rise, we need more education programs and 
enforcement, not less.
    We are also concerned about the growing number of 
legislative exemptions. Generally, CVSA opposes exemptions in 
legislation, as they complicate enforcement and have the 
potential to undermine safety efforts. And we understand that 
these exemptions are intended to provide relief to the 
industry, and that industry understandably wants that relief as 
soon as possible, but if the exemption cannot be enforced 
correctly and consistently, then both industry and enforcement 
suffer.
    CVSA asks that members receive exemption requests from 
constituents to consider whether that exemption is truly 
necessary and ensure that there will be no negative impact to 
safety. When an exemption is included in legislation, CVSA asks 
that members include an implementation window that allows the 
Federal agencies enough time to provide guidance and the states 
enough time to adopt the exemption and train inspectors and 
enforcement personnel.
    And, finally, there remains work to be done on the issue of 
motor carrier safety. While inspectors can stop a truck 
carrying freight at any time, they are not permitted to stop 
and inspect a loaded motorcoach unless they observe a visible 
hazard or a violation of state law. Think about that. So 
drivers, vehicles, and motor carriers that move people are 
subject to less scrutiny than those that transport goods.
    While the majority of the industry is committed to safety, 
enforcement needs the authority to stop and inspect all 
commercial motor vehicles on the roadways, particularly those 
that move people.
    To conclude, we ask that Congress give FMCSA and the states 
robust and stable funding; clear, enforceable regulations; and 
the authority to inspect and interact with all sectors of the 
commercial motor vehicle community. And given those tools, I am 
confident that we will succeed in reducing fatalities, 
injuries, and crashes involving commercial motor vehicles.
    Again, thank you for the opportunity to be here. I 
appreciate it.
    [The prepared statement of Captain Turner follows:]

  Prepared Statement of Chris Turner, Captain, Kansas Highway Patrol, 
         and Vice President, Commercial Vehicle Safety Alliance
Introduction
    Chairman Fischer, Ranking Member Booker and Members of the 
Subcommittee, thank you for holding this important hearing and for 
inviting me here today to discuss the future of safety on our Nation's 
highways.
    My name is Chris Turner, I am a Captain with the Kansas Highway 
Patrol, and I currently serve as Vice President of the Commercial 
Vehicle Safety Alliance (CVSA). CVSA is a nonprofit association 
comprised of local, state, provincial, territorial and Federal 
commercial motor vehicle safety officials and industry representatives. 
We represent the state agencies tasked with the responsibility for the 
administration and enforcement of commercial motor carrier safety 
regulations in the United States (U.S.), Canada and Mexico. We work to 
improve commercial motor vehicle (CMV) safety and uniformity by 
bringing truck and bus regulatory, safety and enforcement agencies 
together with industry representatives to solve highway transportation 
safety problems. Every state in the U.S., all Canadian provinces and 
territories, the country of Mexico, and all U.S. territories and 
possessions are CVSA members.
    The topic of today's hearing, ``Continuing to Improve Safety on our 
Nation's Highways.'' is a critical one. I would like to thank the 
subcommittee for holding this hearing to discuss the future of safety 
on our roadways. As the commander of commercial motor vehicle 
inspectors in Kansas, my testimony will focus on how to improve safety 
related to commercial motor vehicles.
    As we work to implement the Fixing America's Surface Transportation 
(FAST) Act of 2015 and begin to consider the next round of improvements 
for CMV safety, it is critical that Congress and the administration 
provide states with the resources necessary to effectively take unsafe 
drivers and vehicles off the roads, shut down motor carriers that do 
not comply with the safety requirements, and continue our education and 
outreach programs. This testimony will focus on the challenges facing 
the CMV enforcement community and our recommended solutions. Simply 
put, CVSA is asking Congress to provide the states with the tools we 
need to effectively run our programs and save lives. We need reliable 
funding that is commensurate with the work load; clear, enforceable 
regulations; and access to all sectors of the motor carrier industry.
Stable, Long-Term Funding
    The Federal government entrusts the states with the responsibility 
of enforcing the Federal Motor Carrier Safety Regulations (FMCSRs) and 
the Hazardous Materials Regulations (HMRs). To meet that 
responsibility, Congress provides funding to the states, through the 
Motor Carrier Safety Assistance Program (MCSAP). The states use these 
funds to conduct inspection and enforcement activities, train 
enforcement personnel, purchase necessary equipment, update software 
and other technology, and conduct outreach and education campaigns to 
raise awareness and improve CMV safety issues. The funds are used, in 
part, to pay the salaries of more than 12,000 full and part time CMV 
safety professionals. These people conduct more than 3.4 million CMV 
roadside inspections, 34,000 new entrant safety audits and 6,000 
compliance reviews each year.
    The good news is the program works. Effective enforcement of the 
FMCSRs and HMRs helps save lives every day, keeping dangerous vehicles, 
and unqualified and unsafe drivers off the Nation's roads. The benefits 
of MCSAP are well documented, and every dollar invested in the state 
programs yields a big return for taxpayers. According to research and 
figures from the Federal Motor Carrier Safety Administration (FMCSA), 
CVSA estimates that MCSAP has an estimated benefit to cost ratio of 
20:1. Every roadside inspection conducted yields an estimated $3,281 in 
safety benefits.
    Unfortunately, the program now faces a lack of reliable, long-term 
funding, which could force states to scale back or even end their CMV 
enforcement programs entirely. In the FAST Act, states were tasked with 
a number of new safety initiatives under MCSAP. New and expanded 
responsibilities mean improvements in safety, but only to the extent 
the states have the resources to effectively implement those policies. 
In recognition of this fact, the bill also included higher funding 
levels for the MCSAP grants, ensuring that funding levels kept pace 
with the growing workload. States, in turn, relied on that commitment 
of more Federal funding to maintain current enforcement activities, 
programs, staffing levels and purchase equipment necessary for the 
performance of their CMV safety responsibilities. However, because 
Congress is operating under a series of Continuing Resolutions for 
fiscal 2017, states are receiving less in Federal funds to do more 
work. This is not a sustainable model for the states.
    The issue is further complicated because the current continuing 
resolution was drafted using the pre-FAST Act funding model. The FAST 
Act consolidated nine grant programs into four. This new grant 
structure went into effect in 2017. Because the December continuing 
resolution was not updated to reflect the new grant structure, it 
inadvertently funds several grants that no longer exist while failing 
to fully fund the MCSAP formula grant and the revamped High Priority 
grant programs. This means, although Congress has already allocated the 
money, if this issue is left unresolved FMCSA will not be able to 
disburse nearly $112 million in fiscal 2017 funds to the states for 
critical safety, enforcement activities and educational outreach. As a 
result, not only are states not receiving the full funding level 
authorized in the FAST Act for fiscal 2017, but they could, in fact, 
receive less in fiscal 2017 than they did in fiscal 2016, severely 
curtailing critical CMV enforcement and inspection activities funded by 
MCSAP and potentially putting the future of some state programs at 
risk. The table below shows the various funding scenarios for the MCSAP 
formula and High Priority grants.

----------------------------------------------------------------------------------------------------------------
                      Fiscal 2017 Funding Level Scenarios--MCSAP Formula and High Priority
-----------------------------------------------------------------------------------------------------------------
                               Current Continuing Resolution  WITH       Current Continuing Resolution  WITHOUT
       FAST Act 2017                         Anomaly                                    Anomaly
----------------------------------------------------------------------------------------------------------------
$334 million                                            $285 million                               $171 million
----------------------------------------------------------------------------------------------------------------

    In addition, certain CMV enforcement and inspection activities 
critical to national security are also impacted. For example, because 
the Border Enforcement Grants Program (BEG) was incorporated into the 
new MCSAP grant structure in the FAST Act reorganization, the current 
misalignment in the Fiscal 2017 Continuing Resolution means that 
despite Congress having allocated the money for BEG, FMCSA will not be 
able to disburse the funds to the states, severely limiting resources 
used to ensure that foreign carriers coming into the United States are 
compliant with the U.S. safety regulations.
    When States realize a reduction in their MCSAP funding, their 
programs are reduced and fewer inspections, compliance reviews, safety 
audits and education programs are conducted, reducing the safety 
benefits discussed above and undermining years of improvement in CMV 
safety. Reductions in funding also mean lost jobs. According to a 
report completed for FMCSA in 2007, the average ``cost'' (including 
wages and benefits) of a state safety inspector was estimated at 
$66,052.51.\1\ This means that for every $1 million invested in the 
MCSAP, 15 jobs are created or maintained. Conversely, every $1 million 
reduction in MCSAP funding results in lost jobs or positions eliminated 
at the state level. And once those positions are eliminated, it can be 
very difficult to bring them back.
---------------------------------------------------------------------------
    \1\ Roadside Inspection Costs. Federal Motor Carrier Safety 
Administration. October 2007. http://www.fmcsa.dot.gov/facts-research/
research-technology/report/Roadside-Inspection-Costs-Oct2007.pdf
---------------------------------------------------------------------------
    It is imperative that states be able to rely on long-term funding 
at levels that match their efforts. The consequences of not addressing 
this funding issue are grave and extend well beyond this single fiscal 
year. In the short-term, state agencies may be forced to drastically 
cut programs and downsize their workforce in order to absorb the 
funding reductions. However, uncertainly for states could also lead to 
enforcement personnel being transferred out of CMV enforcement units, 
endangering drivers and the general welfare of the motoring public when 
important traffic enforcement activities are reduced or eliminated 
altogether due to a lack of reliable resources and manpower. Even if 
funding in fiscal 2018 returns to authorized FAST Act levels, it will 
be difficult for states to rebuild these critical safety programs, as 
it requires significantly more time to re-hire and re-train enforcement 
and inspection personnel, and state governments may be unwilling to 
recommit funds and manpower to a program with unreliable long-term 
funding. Once those state resources are redirected to other activities 
within the state, it will be incredibly difficult to bring them back to 
CMV safety-focused activities. This means a reduction in enforcement on 
the motor carrier industry while all reports indicate that the number 
of trucks and buses on our nations roadways will only continue to grow 
and recent crash and fatality numbers show an alarming trend upwards.
    To address this issue, CVSA encourages Congress pass a full 
appropriations bill realizing the FAST Act's promise of increased 
funding levels for MCSAP. If Congress is unable to pass a 
transportation appropriations bill and instead must pass a continuing 
resolution through the end of the year, it is imperative that the 
continuing resolution include an anomaly requested by the U.S. 
Department of Transportation's FMCSA to correct the misalignment of 
funds in the current continuing resolution, which expires April 28.
    However, this is only a short-term patch. The larger issue of 
relying on the appropriations cycle to determine funding levels on a 
year-to-year basis does not allow the states to plan long-term. State 
agencies will be reluctant to fill positions, continue enforcement 
programs or engage in bold new initiatives if they cannot be confident 
that Federal funds will come in a timely manner, at the approved 
levels. Recognizing that future funding for the MCSAP is directly tied 
to the long-term solvency of the Highway Trust Fund, CVSA supports 
ongoing efforts to identify sustainable, long-term revenue sources to 
address the Highway Trust Fund solvency, in order to ensure stability 
for MCSAP. In addition, we look forward to working with the Members of 
this Committee to find a way to provide states with steady, reliable 
funding at the authorized levels.
Exemptions
    Another challenge facing the enforcement community is inconsistency 
in the regulations. The Federal safety regulations help reduce or 
prevent truck and bus crashes, fatalities, and injuries by establishing 
minimum credentialing and vehicle mechanical fitness requirements to 
ensure interstate motor carriers and drivers operate safely. The 
regulations are developed in consultation with enforcement, industry, 
and subject matter experts, and are intended to establish a clear set 
of rules by which all motor carriers must abide.
    The states, in partnership with FMCSA, work to enforce those 
regulations consistently and correctly. In order to become a CMV 
inspector, an individual must go through rigorous training. Once 
certified, an inspector must conduct a minimum level of inspections 
each year to maintain their certification. Inspectors must also attend 
annual refresher training and are trained after every regulatory update 
or change. This is all geared towards ensuring that inspectors and 
roadside enforcement officials fully understand and effectively 
communicate the regulations they are enforcing.
    Clarity, consistency, uniformity and enforceability are the 
cornerstones of an effective regulatory framework. Confusion and 
inconsistencies create more work for the enforcement community and 
industry. Inconsistencies and exceptions within the regulations require 
more training and create more opportunities for mistakes, which in turn 
require additional resources to correct. These inconsistencies also 
have a direct impact on data quality. Senator Fischer, Ranking Member 
Booker and the Members of this Committee recognized these facts by 
including provisions in the FAST Act to improve the regulatory process, 
for which the enforcement community is grateful.
    Unfortunately, however, the FAST Act also included a number of 
legislative exemptions from the safety regulations. CVSA is generally 
opposed to the inclusion of exemptions in legislation. We recognize 
that there may be instances when exemptions are appropriate and do not 
compromise safety; however, overall, CVSA believes that exemptions have 
the potential to undermine safety and complicate enforcement. Every new 
exemption is an opportunity for confusion and inconsistency in 
enforcement, diverting scarce resources from other activities and 
undermining the program's effectiveness. While CVSA has no specific 
opposition to many of the exemptions on an individual basis, 
complications have already surfaced regarding their implementation.
    Problems begin with the adoption of exemptions. While the 
exemptions were made effective at the Federal level upon enactment of 
the bill, that is not necessarily the case at the state level. The 
states cannot enforce Federal laws and regulations, and instead adopt 
Federal regulatory policy into their own state law and code. Some 
states adopt Federal rules by reference, allowing them to automatically 
adopt Federal changes immediately. However, many states do not adopt by 
reference and must go through either a legislative or regulatory 
process to make the Federal regulatory changes effective at the state 
level. This process takes time, especially in states where the 
legislature does not meet annually.
    Even in states where adoption is automatic by reference, there is 
still a delay in the practical implementation of an exemption. 
Jurisdictions must be made aware of the change and its impacts. In many 
cases, interpretations and guidance from the Federal agency on the 
parameters and definitions of the exemption are necessary. For example, 
a number of the exemptions to CMV size and weight limits included in 
the FAST Act required guidance from the Federal Highway Administration 
(FHWA). FHWA worked quickly to provide the guidance to the states, but 
even so, the document was not circulated until February of 2016, which 
left industry and the enforcement community wondering how the 
exemptions would work in the meantime and at times creating conflicts 
during roadside inspections.
    Finally, once the exemption has been analyzed and guidance 
provided, state enforcement personnel must be trained on the new 
exemptions. Inspectors must be taken away from important enforcement 
and education efforts and brought into the classroom to be trained on 
the changes. Practically speaking, this takes time. This guidance and 
the subsequent training is critical to ensuring the exemption is 
interpreted and enforced uniformly.
    Recognizing these challenges, FMCSA has a policy in place that 
allows states three years to adopt changes to the FMCSRs. While states 
work hard to adopt the changes as quickly as possible, the three-year 
window allows enough time for the states to go through their process 
and for inspectors to be properly trained. Moving forward, CVSA 
encourages Congress to consider including an implementation window or 
some other mechanism that allows other Federal agencies enough time to 
provide any necessary guidance on the exemption and the states enough 
time to adopt the changes and train inspectors and enforcement 
personnel. We understand the exemptions are intended to relieve 
industry of a certain burden, but if the exemption cannot be enforced 
correctly and consistently, industry and the enforcement community both 
suffer. CVSA looks forward to working with Congress and our partners in 
the motor carrier industry to identify a solution to this issue that 
meets the industry's needs while also allowing for clear, uniform 
application and enforcement of the regulations.
Motorcoach Safety
    Motorcoach safety is another issue the enforcement community sees 
challenges with going forward. The issue of bus and motorcoach safety 
has been thrust into the spotlight over the past several years due to a 
series of high profile, fatal crashes. According to FMCSA data and 
findings by the National Transportation Safety Board (NTSB), from 2005 
to 2010, 262 people died in motorcoach crashes, and another 9,062 were 
injured. Meanwhile, travel by bus or motorcoach is growing. Since 2005, 
annual growth rates for intercity motorcoach service ranged from 5.1 to 
9.8 percent between 2006 and 2010.\2\
---------------------------------------------------------------------------
    \2\ Report on Curbside Motorcoach Safety. Special Report NTSB/SR-
11/01. National Transportation Safety Board. 2011. http://www.ntsb.gov/
doclib/safetystudies/SR1101.pdf
---------------------------------------------------------------------------
    The passenger carrier industry is relatively small, with 
approximately 12,000 companies, in comparison to approximately 525,000 
property-carrying motor carriers in the United States. And, nationally, 
there are fewer CVSA-certified North American Standard Passenger 
Vehicle inspectors than there are CVSA-certified truck inspectors. Yet, 
approximately 750 million passengers board a bus or motorcoach each 
year. Enforcement agencies conducted nearly 122,000 inspections of 
passenger-carrying CMVs in 2015; that's compared with 3.2 million 
inspections of property-carrying CMVs in the same year.\3\ Part of this 
is attributable to the fact that there simply are more trucks on the 
road than buses. However, passenger vehicle certified inspectors are 
currently restricted on when and where they can examine a passenger-
carrying CMV, which also contributes to the vastly lower inspection 
numbers. Inspectors are only permitted to stop a loaded bus when they 
observe a traffic law violation, such as speeding or unsafe driving, or 
if the inspector can see a visible vehicle violation that creates an 
imminent hazard.
---------------------------------------------------------------------------
    \3\ Motor Carrier Safety Progress Report (as of 9/30/16). Federal 
Motor Carrier Safety Administration. 2017. https://www.fmcsa.dot.gov/
content/motor-carrier-safety-progress-report-september
-30-2016
---------------------------------------------------------------------------
    While the vast majority of motor carriers and drivers are committed 
to safety, this restriction allows those seeking to avoid scrutiny and 
circumvent safety requirements to plan around inspections. Furthermore, 
because of the current restrictions, there is an entire segment of the 
industry, known as curbside carriers that are largely out of the reach 
of inspectors. These are generally intercity carriers operating under a 
business model where they pick up and drop off at a curbside location, 
rather than at a set facility. This model allows flexibility to meet 
the changing needs of customers, but opens the opportunity for carriers 
to choose to avoid the scheduled origin/destination inspections that 
carriers using the conventional fixed facility service receive. While 
curbside operations represent a smaller segment of the overall 
passenger-carrying industry, according to the NTSB report, curbside 
carriers have higher fatal accident and death rates and higher serious 
driver violations rates than conventional carriers.\4\
---------------------------------------------------------------------------
    \4\ Report on Curbside Motorcoach Safety. Special Report NTSB/SR-
11/01. National Transportation Safety Board. 2011. http://www.ntsb.gov/
doclib/safetystudies/SR1101.pdf
---------------------------------------------------------------------------
    The ability to inspect a passenger-carrying CMV en route is an 
extremely important tool for effective enforcement. Much like random 
drug testing, the possibility of an unscheduled inspection en route 
helps ensure that carriers and drivers comply with safety regulations. 
Under the current restrictions, inspectors do not have authority to 
pull over a passenger-carrying CMV for an inspection unless the there 
is a visible imminent hazard. But what if the imminent hazard present 
is one associated with the driver that is not visible? Research shows 
that most crashes are caused by driver-related factors. A driver could 
be operating their passenger-carrying vehicle without being medically 
qualified, without the proper class of license, without the proper 
license endorsement(s), driving despite a suspended or revoked license, 
and/or exceeding his or her allowable hours of service. However, unless 
the unlicensed, fatigued or otherwise seriously impaired driver is 
observed making an imminently hazardous traffic infraction, the first 
indication to inspectors of an imminent hazard may be when the driver 
falls asleep and crashes. As long as there is no visible problem, that 
hazardous driver will not be detected.
    Proponents of the restriction will argue that it was put in place 
for the safety of the passengers, so they do not end up stranded on the 
side of a busy highway. However, traffic enforcement officers (who may 
or may not be passenger vehicle certified) may already stop a bus or 
motorcoach for traffic violations--such as speeding or other dangerous 
behavior. So, the potential for being delayed due to enforcement does 
exist. However, this unnecessary restriction makes traffic enforcement 
stops, sometimes on the roadway shoulder, the only viable option to 
stop and check passenger-carrying vehicles and their drivers. But 
waiting for unlawful behavior by the driver does not prevent the risk 
to passengers, which is the purpose of the passenger-carrying CMV 
inspection in the first place. Certified inspectors are trained to make 
inspection stops in safe locations--preferably escorting the vehicle to 
an exit and a safe inspection site. Once subject to inspection, the 
inspector is responsible for the safety and security of the passengers, 
including the driver.
    Proponents of the restriction will also argue that the restriction 
is necessary, so that carriers can maintain their tight schedules and 
meet pick-up and drop-off commitments to their customers. However, the 
trucking industry, which operates on the same tight timetables and 
under similar conditions on the roadways, has been able to incorporate 
roadside inspections into their business model effectively.
    CVSA respects that the motorcoach industry operates on a tight time 
schedule and that a stop en route has the potential to delay schedules, 
inconveniencing passengers; and, certainly, the comfort of passengers 
is a necessary consideration. We also recognize that the majority of 
carriers and drivers operate safely. However, it is important that the 
enforcement community be able to reach the entire industry to ensure 
all motor carriers are operating in compliance with the Federal 
requirements set by Congress. CVSA supports striking the en route 
prohibition from the regulations entirely.
    In addition, while the CMV size and weight discussion often focuses 
on property-carrying CMVs, it is important to understand that all CMVs, 
including passenger-carrying CMVs, are subject to the same weight laws 
and regulations. As the bus and motorcoach industry has evolved, new 
requirements have been issued mandating additional equipment--for 
example, handicapped passenger accessories to satisfy Americans with 
Disabilities Act requirements or diesel emissions equipment to satisfy 
Environmental Protection Agency requirements--that have added to the 
empty/tare weight of the vehicle, effectively reducing the passenger 
weight capacity margin. In addition, the average weight of a passenger 
today is likely higher than the decades-old design assumption of 150 
lbs per passenger.\5\ Heavier passengers, the advent of high seating 
capacity double decker buses and the weight of required additional 
equipment result in the higher likelihood that a bus will be loaded 
above its allowable weight. Safe carrying capacity of a bus or 
motorcoach is determined by the manufacturer's design, in which all 
component specifications play a part--frame/body, axles, steering 
components, bearings, and wheels--and particularly brakes and tires. 
Overloading a vehicle or any of its components increases the risk to 
passengers and those operating around the vehicle. According to FMCSA, 
an overloaded tire is more likely to overheat and fail, which could 
result in a blowout and crash.\6\
---------------------------------------------------------------------------
    \5\ Sec. 567.4--Requirements for manufacturers of motor vehicles. 
Federal Motor Vehicle Safety Standards. http://cfr.regstoday.com/
49cfr567.aspx#49_CFR_567p4
    \6\ Motorcoach Safety Advisory Bulletin: Exceeding Tire Load 
Ratings. Federal Motor Carrier Safety Administration. http://
www.fmcsa.dot.gov/documents/alerts/Motorcoach_Safety_Adviso
ry_Bulletin_Exceeding_Tire_Load_Ratings.pdf
---------------------------------------------------------------------------
    To help ensure that passenger-carrying vehicles and components are 
not being overloaded, inspectors need to be able to weigh the vehicle, 
and have the capability to inspect the condition of the components, as 
necessary. Enforcement personnel who have identified passenger-carrying 
CMVs exceeding manufacturers' designs will take the necessary steps to 
minimize the impact on the passengers and their trip. This could 
include the states coordinating with the motorcoach industry to 
establish uniform procedures providing for passenger needs, including 
identifying alternative transportation options, ensuring that at the 
end of the day everyone who travels on our highways arrives home 
without incident. CVSA supports giving states the authority to require 
that passenger carrying CMVs report to an open weigh station while en 
route, specifically for weight enforcement purposes. Standard 
procedures will need to be put into place to provide for passenger 
needs when an overloaded vehicle is identified. We look forward to 
working with Congress and our industry partners to identify a solution 
to this issue.
Conclusion
    The FAST Act includes a number of changes that will have a positive 
impact on the Nation's roadway safety, but those positive results will 
only be realized if the states are given the funding necessary to 
implement comprehensive, robust safety programs, as envisioned in the 
bill. And there remains work to be done. While the bill included a 
number of provisions that will result in more clear, enforceable 
regulations, the practice of including exemptions from the safety 
regulations will continue to hamper enforcement and potentially impact 
safety. In addition, the bill made little progress in the area of 
motorcoach safety and enforcement. As the state agencies responsible 
for CMV enforcement, we look forward to working with the Members of 
this Committee, FMCSA, our industry partners and other stakeholders to 
continue working towards our shared goal of preventing deaths, injuries 
and crashes on the Nation's roadways. We are committed to meeting our 
mission and ask only that we be given the tools we need to do it 
effectively.

    The Chairman. Thank you very much, Captain.
    Next we have Dr. Paul Jovanis. Is it ``Jo-VAN-is'' or ``Jo-
VANE-is''?
    Dr. Jovanis. ``Jo-VAN-is.''
    The Chairman. ``Jo-VAN-is.'' Dr. Jovanis is Professor 
Emeritus at Pennsylvania State University and Chair of the 
Transportation Research Board's Strengthening the FMCSA 
Research and Technology Committee. He has done extensive work 
testing road safety and traffic engineering programs. His 
recent work has focused on the analysis of crash data in 
relation to road safety management.
    Welcome, sir.

         STATEMENT OF PAUL P. JOVANIS, Ph.D., PROFESSOR

      EMERITUS, PENNSYLVANIA STATE UNIVERSITY, AND CHAIR,

  TRANSPORTATION RESEARCH BOARD MOTOR CARRIER SAFETY RESEARCH 
                       ANALYSIS COMMITTEE

    Dr. Jovanis. Chairman Fischer, Ranking Member Booker, and 
Subcommittee members, I'm honored to be here to testify about 
this important topic.
    This testimony summarizes the report of the first meeting 
of the National Academy of Sciences, Engineering, and Medicine 
Motor Carrier Safety Research Analysis Committee. The 
committee's primary charges are to assist the Federal Motor 
Carrier Safety Administration to strengthen the research and 
technology program to better meet the needs of the agency's 
safety mission as well as to inform stakeholders. The committee 
has expertise in truck safety, program management, technology, 
labor, statistics, sleep research, and human factors. A 
committee membership appears in my written testimony.
    Initiated at the request of FMCSA to encourage independent 
program review, the Committee expects to meet semiannually to 
better understand the opportunities and constraints of the 
research and technology program. I would like to emphasize that 
our committee is clearly focused on the research and technology 
program of FMCSA and the safety implications of that program.
    During the open sessions of the meetings, two points were 
made that focused our committee's thinking in the preparation 
of this report. First, the committee was asked to consider 
whether FMCSA is doing the right things in the right areas. 
Second, we were asked to consider the recommendations 
concerning data set forth in a prior 2016 National Academy 
report on motor carrier operator fatigue and health. Our 
committee developed consensus recommendations intended to 
initiate a dialogue with FMCSA staff on suggestions for actions 
taken consistent with our committee charge.
    In responding to the question concerning whether FMCSA is, 
``doing the right things,'' the committee identified at least 
two FMCSA safety goals. The first is to strengthen their R&T 
program with respect to the agency's policies and regulatory 
authorities, such as improving hours of service regulation and 
increasing the effectiveness of vehicle inspection policies. 
The second is to conduct research to more generally reduce the 
frequency and severity of large truck and bus crashes 
consistent with FMCSA's primary mission.
    The bulk of FMCSA's R&T program appears to address the 
first goal. The second is broader and was the subject of 
substantial committee discussion. The first two recommendations 
in our report directly relate to data analysis activities 
within the Research and Technology program.
    The committee's five recommendations can be summarized as 
follows.
    One, the committee suggests the strategic assessment of 
FMCSA's R&T program. In addition to addressing the needs of 
internal customers and responding to congressional mandates for 
specific projects, the agency should consider committee 
recommendations to develop over time a broader program to 
reduce large truck and bus crash frequency and associated 
fatalities and injuries. The committee report contains several 
detailed suggestions in this regard.
    Two, the committee recommends that FMCSA consider a program 
concerning the effect on large truck and bus crashes of 
environment, traffic, vehicle technologies, and road design, in 
design to their current recognized factors. The program should 
include a sustainable, annually produced, national dataset of 
large truck and bus crashes for safety analysis. The committee 
believes much of these data can be derived from existing 
sources. The benefits of such a program are described in our 
report.
    Three, the Committee notes that FMCSA has made substantial 
use of naturalistic driving study, NDS technique. This method 
uses trucks instrumented with cameras, global positioning 
systems, and vehicle sensing hardware. Our suggestion is that 
we undertake a workshop, jointly if possible, with FHWA, NHTSA, 
and TRB, that are possible partners, as part of this endeavor. 
This is a specific technical recommendation, but one the 
Committee felt would benefit FMCSA and possibly other DOT 
agencies.
    Our Committee supports methodologies to evaluate the 
effectiveness of programs designed to reduce crashes.
    And, finally, the Committee discussed the influence of 
driver compensation on driver behavior. The committee realizes 
the complexity and contentiousness of this topic, desiring to 
develop a deeper understanding of the issue before offering 
additional advice.
    Finally, I want to thank the Committee and express our 
appreciation to the FMCSA staff, who gave generously of their 
time during our meetings. They're to be commended for engaging 
the Academies in this effort. Thank you.
    [The prepared statement of Dr. Jovanis follows:]

   Prepared Statement of Paul P. Jovanis, Ph.D., Professor Emeritus, 
Pennsylvania State University, and Chair, Transportation Research Board 
            Motor Carrier Safety Research Analysis Committee
           Initial Review of Research and Technology Program 
           of the Federal Motor Carrier Safety Administration
    Chairwoman Fischer, Ranking Member Booker and committee members, I 
am honored to be asked to testify about this important topic.
Background
    This testimony summarizes the report of the first meeting of the 
Motor Carrier Safety Research Analysis Committee (NASEM, 2017), held on 
December 15-16, 2016, at the National Academy of Sciences building in 
Washington, D.C. The committee's primary charges are to ``assist the 
Federal Motor Carrier Safety Administration (FMCSA) to strengthen 
FMCSA's research and technology (R&T) program to better meet the needs 
of the Agency's safety mission as well as to inform commercial motor 
vehicle carrier enforcement, the research community, safety advocates, 
and industry of active and planned projects'' and ``(a) assist FMCSA in 
refining its research methodologies; (b) assist in identifying and 
utilizing current research in the transportation and related 
communities; and (c) promote transparency of the FMCSA R&T 
activities.''
    The committee is a group of individuals free of conflicts with 
regard to FMCSA's R&T program and with expertise in truck safety (both 
researchers and motor carrier operators), truck safety program 
management, technology, labor, statistics, sleep, and human factors 
(see attached committee membership). Initiated at the request of FMCSA 
to encourage independent program review, the committee expects to meet 
semi-annually as we seek to better understand the opportunities and 
constraints of the R&T program.
    During the open sessions of our meeting, two points were made that 
focused the committee's thinking in the preparation of this report. 
First, the committee was asked to consider whether FMCSA is doing the 
right things in the right areas. Second, we were asked to consider the 
recommendations concerning data set forth in the 2016 report of the 
National Academies of Sciences, Engineering, and Medicine on motor 
carrier operator fatigue and health (NASEM 2016). Discussion of these 
two questions was the organizing principle for our letter report. The 
committee developed consensus recommendations intended to initiate a 
dialogue with FMCSA staff on suggestions for actions to be taken 
consistent with our committee statement of task.
Strategic Planning for FMCSA's R&T Program
    In responding to the question concerning whether FMCSA is ``doing 
the right things,'' the committee identified at least two safety goals, 
each with different implications concerning priorities for research and 
data analysis. The first is to strengthen FMCSA's R&T with regard to 
the agency's policies and regulatory authorities, such as by addressing 
fatigue through improved hours of service (HOS) regulation or reducing 
crashes through increased effectiveness of vehicle inspection policies. 
The second is to conduct research and assist in technology development 
to reduce the frequency and severity of large truck and bus crashes, 
consistent with FMCSA's primary mission.\1\
---------------------------------------------------------------------------
    \1\ https://www.fmcsa.dot.gov/mission
---------------------------------------------------------------------------
    Although these goals are clearly related, the second is broader, 
and was the subject of additional committee discussion. The bulk of 
FMCSA's R&T appears to address the first goal. As explained in the 
paragraphs that follow, the committee raised a question concerning 
whether the agency is missing an opportunity to ascertain more broadly 
the factors contributing to large truck and bus crashes and to 
identify, evaluate, and implement suitable countermeasures.
    The committee learned from staff presentations that the R&T program 
has focused over the past decade or so on serving internal FMCSA R&T 
customers such as program managers in rulemaking and enforcement and 
responding to congressional mandates for specific projects. This 
implies that the R&T program is addressing the first safety goal 
identified above. The resulting projects include important safety 
concerns but appear to give less attention to the second goal. The 
committee appreciates the need for FMCSA to study specific areas 
related to driver behavior and fatigue, as recommended in the National 
Academies' driver fatigue and health report.\2\ However, addressing 
such priorities should not preclude modest investments in data 
gathering and analysis to understand risks of large truck and bus 
crashes more broadly (i.e., goal 2).
---------------------------------------------------------------------------
    \2\ See Recommendation 12.
---------------------------------------------------------------------------
    Studies based on available data can yield important insights into 
risk and where safety agencies should target their efforts and can 
thereby inform strategic planning for future research. For example, an 
analysis by Medina-Flintsch et al., (2012), which was discussed during 
the meeting, indicates that most fatal truck crashes in two states 
occurred on state roads and highways rather than on Interstate 
highways, where most truck inspection enforcement activity is focused. 
Furthermore, the non-Interstate fatal crash rate per truck mile 
traveled is roughly two and one-half times that of the Interstate crash 
rate. If this experience is typical of national trends, a targeted 
effort to identify and enforce appropriate countermeasures is needed to 
reduce fatal truck crashes off the Interstate system. Even off the 
Interstates, a substantial portion of truck-involved fatal crashes 
involve interstate carriers, which implies that a substantial share of 
this safety problem is within FMCSA's responsibility.
    The committee appreciates that the authorities and policies 
available to FMCSA are limited to drivers, vehicle maintenance, and 
carrier safety performance, which understandably causes the agency to 
focus its efforts in these areas. Nonetheless, the committee recommends 
that FMCSA consider a program of study that includes consideration of 
the effect of environmental factors, traffic levels, vehicle 
technologies, and roadway design on large truck and bus crashes in 
addition to their current set of contributing factors. Although these 
additional areas are primarily the responsibility of other entities,\3\ 
follow-up research on the Medina-Flintsch et al., study mentioned above 
could also have implications for FMCSA's inspection and enforcement 
programs. The committee was pleased to learn in this regard that FMCSA, 
NHTSA, and FHWA have a history of collaboration on motor carrier safety 
issues.
---------------------------------------------------------------------------
    \3\ NHTSA (for crash avoidance technologies), Federal Highway 
Administration (FHWA) (for highway safety countermeasures), and 
localities and states (for highway design, enforcement, traffic 
control, and emergency response).
---------------------------------------------------------------------------
    The committee encourages FMCSA to consider (a) setting priorities 
through strategic analysis to identify possible problem areas, then (b) 
analyzing data to refine problem descriptions and explore possible 
countermeasures, and finally (c) carrying out pilot tests of 
countermeasures with evaluations of effectiveness. FMCSA's R&T program 
has used elements of this process in investigations of driver fatigue 
and distraction. The committee encourages the agency to broaden its 
view to consider risk more holistically rather than to focus on aspects 
of drivers, vehicle maintenance, and carrier performance to identify 
the highest areas of risk or the most cost-effective countermeasures. 
To the extent that a cost-effective countermeasure is the 
responsibility of other modal administrations, FMCSA could cooperate 
with the appropriate agency. The next section addresses how risk might 
be considered more broadly through the provision of enhanced data for 
analysis.
Enhanced Crash Data
    FMCSA countermeasures focus on drivers, vehicles, and carriers. 
FMCSA R&T appears to do so as well, but this focus leaves out the 
interacting effects of the environment and the roadway. In view of 
FMCSA's limited R&T budget for data (about $3 million annually), the 
committee is suggesting not the collection of new data but the assembly 
of relevant information concerning motorcoach and truck crashes from 
existing data sets.
    The concept is to continue to seek opportunities to develop and 
provide researchers with access to a sustainable data set that can be 
used to conduct a range of safety analyses requiring multiple 
variables. A similar recommendation is contained in the National 
Academies' driver health and fatigue report.\4\ In this regard, FMCSA's 
plan to create a database repository for data collected by FMCSA \5\ is 
appropriate and should be conducted in a manner consistent with Federal 
data standards and protocols established through the data.gov 
program.\6\
---------------------------------------------------------------------------
    \4\ See pages 189-190.
    \5\ https://www.fmcsa.dot.gov/safety/research-and-analysis/data-
repository-naturalistic-driving
-and-other-datasets.
    \6\ https://www.data.gov/safety.
---------------------------------------------------------------------------
    In addition, the committee recommends that FMCSA consider the 
assembly of a sustainable database of large truck and bus crashes and 
their attributes. The data set should include as many crash location, 
severity of outcome, contributing crash factors, and crash (number of 
vehicles, time of day, weather), vehicle, roadway, driver, and carrier 
attributes as can be obtained by full integration of available data 
sources. Several data sets can serve as starting points for such a 
sustainable data set; the details can be developed through the conduct 
of the research. The point is to use such a data set to support the 
conduct of motor carrier safety research throughout the United States.
    As a secondary benefit to FMCSA, expansion and availability of data 
sets over time could enlarge the community of researchers interested in 
and knowledgeable about truck safety. These researchers would not 
necessarily be under contract to FMCSA. For example, they might be 
academic researchers, including doctoral students preparing 
dissertations, whose work is made possible by the availability of data. 
At present, the number of researchers knowledgeable about motor carrier 
safety is limited, which restricts FMCSA's options when it seeks 
contractors to compete for research proposals or for assistance in peer 
review.
Safety Research Methods
    The committee appreciates FMCSA's methodological challenges in 
studying driver and vehicle safety issues. For example, for studies in 
the area of fatigue, FMCSA relied on data provided by cooperating 
carriers, which may involve biases because they tend to be the largest, 
most safety-conscious carriers.
    Alternatively, FMCSA has relied on naturalistic driving studies 
(NDS) to examine driver behavior. This method uses trucks instrumented 
with cameras, global positioning systems and vehicle sensing hardware 
to observe driver behavior and vehicle response continuously in real 
time. While providing useful information about the actions of the 
driver of the instrumented commercial vehicle, the method is costly and 
results difficult to generalize because they are not random samples 
(and often again rely on data from the most safety-conscious carriers) 
and typically lack crashes or even large numbers of near crashes. The 
committee will have more comments in this area in subsequent letter 
reports as it learns more about FMCSA's safety priorities, data 
constraints, and emerging concerns.
    The committee report provides additional discussion of 
methodological opportunities available to the agency including 
naturalistic driving study methods already in use by the agency, 
epidemiological methods, and other techniques. One specific suggestion 
is to convene a workshop, which would bring together top safety 
methodologists across several fields (e.g., statistics, epidemiology, 
road safety, human factors) to provide focused advice on the use of 
naturalistic driving methodologies. There is an emerging literature 
that forms a foundation for discussion on this topic (e.g., Jonasson 
and Rootzen 2014; Wu and Jovanis 2012; Tarko 2012; Guo et al., 2010; 
Bargman et al., 2015). Further details about methodological 
opportunities are contained in the committee report.
Driver Behavior
    Prior convictions for moving traffic violations are a good 
predictor of subsequent crash risk [Lueck and Murray (2011), IIHS 
(1990)]. A long-term effort to collect data on moving violations could 
build on the recently completed FMCSA R&T report concerning the 
underreporting of commercial motor vehicle driver convictions by courts 
and states.\7\ States receive incomplete reporting from their court 
systems, and some judges are reluctant to penalize motor carrier 
drivers through convictions that could take away their means of earning 
a living. In addition, first-time offenders sometimes receive a 
referral to training rather than a conviction, despite evidence that 
this practice poses a risk to other drivers (Gebers 2007). However, all 
states record convictions for moving violations on driver records, so 
collection of data on moving violation convictions is feasible.
---------------------------------------------------------------------------
    \7\ https://www.fmcsa.dot.gov/research-and-analysis/research/
assessment-commercial-driver
%E2%80%99s-license-cdl-holders%E2%80%99-traffic.
---------------------------------------------------------------------------
Advanced Technology
    Committee discussions concerning advanced technology systems for 
motor carriers included studies of Wireless Roadside Inspection (WRI), 
automation and collision avoidance systems. The committee was pleased 
to learn about FMCSA's large-scale research project addressing wireless 
roadside inspections.\8\ If most fatal truck crashes occur off the 
Interstates, as indicated by the Medina-Flintsch et al., (2012) results 
described above, WRI capability would allow inspections to be conducted 
where risks appear to be highest. In view of the potential safety gains 
and issues associated with connected and autonomous vehicle 
technologies, the committee is interested in knowing more about (a) 
FMCSA and NHTSA efforts to track market penetration of different 
technologies and (b) early evaluations of the safety efficacy of these 
technologies.
---------------------------------------------------------------------------
    \8\ This multiyear, nearly $5 million effort is described at 
https://www.fmcsa.dot.gov/research-and-analysis/technology/wireless-
roadside-inspection-wri-research-project.
---------------------------------------------------------------------------
Summary
    The committee's 5 recommendations may be summarized as:

  1.  The committee suggests a strategic assessment of FMCSA's R&T 
        program. In addition to addressing the needs of internal 
        customers and responding to congressional mandates for specific 
        projects, the agency should consider committee recommendations 
        to develop, over time, a broader program to reduce large truck 
        and bus crash frequency and the associated fatalities and 
        injuries.

  2.  The committee recommends that FMCSA consider a program concerning 
        the effect on large truck and bus crashes of environment, 
        traffic, vehicle technologies, and road design in addition to 
        the currently recognized factors. The program should include a 
        sustainable, annually produced national data set of large truck 
        and bus crashes for safety analysis.

  3.  The committee notes that FMCSA has made substantial use of the 
        naturalistic driving study (NDS) technique. The committee 
        suggests that FMCSA convene a workshop of safety experts, 
        epidemiologists, and statisticians to suggest improvements to 
        NDS analysis to improve their use as a safety methodology 
        (especially the use of proxy measures and crash surrogates). 
        The interest of FHWA, NHTSA, and TRB technical committees 
        indicates possible partners in such an endeavor.

  4.  The National Academies' driver fatigue and health report 
        recommended that evaluation of the effectiveness of a program 
        designed to reduce crashes can be more feasible and relevant 
        than an attempt to quantify the multiple causes of crashes.

  5.  The committee discussed the influence of driver compensation on 
        driver behavior. The committee realizes the complexity and 
        contentiousness of this topic, desiring to develop a deeper 
        understanding of the issue before offering advice.

    Finally, on behalf of the entire committee, I express my 
appreciation to the FMCSA staff, which gave generously of their time 
during our meetings. They are to be commended for engaging the National 
Academies for this purpose.
References
    Bargman, J., V. Lisovskaja, T. Victor, C. Flannagan, and M. Dozza. 
2015. How Does Glance Behavior Influence Crash and Injury Risk? A 
``What-If'' Counterfactual Simulation Using Crashes and Near-Crashes 
from SHRP2. Transportation Research Part F, Vol. 35, pp. 152-169.

    Gebers, M. A. 2007. A Traffic Safety Evaluation of California's 
Traffic Violator School Citation Dismissal Policy. RSS-07-223. 
California Department of Motor Vehicles. https://www.dmv.ca.gov/portal/
wcm/connect/62c070c5-83c7-4d1c-a844-dbe
af18ece74/S3-223.pdf?MOD=AJPERES&amp;CONVERT_TO=url&amp;CACHEID=
62c070c5-83c7-4d1c-a844-dbeaf18ece74.

    Guo, F., S. G. Klauer, J. M. Hankey, and T. A. Dingus. 2010. Near 
Crashes as Crash Surrogate for Naturalistic Driving Studies. 
Transportation Research Record: Journal of the Transportation Research 
Board, No. 2147, pp. 66-74.

    IIHS. 1990. Traffic Conviction Dismissals Distort Offenders' 
Records; Hide Future Crash Risk. Advisory No. 7, Jan.

    Jonasson, J. K., and H. Rootzen. 2014. Internal Validation of Near-
Crashes in Naturalistic Driving Studies: A Continuous and Multivariate 
Approach. Accident Analysis and Prevention, Vol. 62, pp. 102-109.

    Lueck, M., and D. Murray. 2011. Predicting Truck Crash Involvement: 
2011 Update. American Transportation Research Institute, Arlington, Va.

    Medina-Flintsch, A., T. E. Trimble, R. G. Hughes, J. Scott, and R. 
M. Clarke. 2012. Linking Carrier Descriptive Attributes to Crash 
Patterns. International Forum on Traffic Records. http://www.atsip.org/
forum2012/program/presentations/s41_
LinkingCarrierAttirbutesCrashPatterns_Flintsch.pdf.

    NASEM. 2016. Commercial Motor Vehicle Driver Fatigue, Long-Term 
Health, and Highway Safety: Research Needs. National Academies Press, 
Washington, D.C.

    NASEM.2017. Letter Report 1, Motor Carrier Safety Research Analysis 
Committee, Transportation Research Board, March, 2017.

    Tarko, A. P. 2012. Use of Crash Surrogates and Exceedance 
Statistics to Estimate Road Safety. Accident Analysis and Prevention, 
Vol. 45, pp. 230-240.

    Wu, K.-F., and P. P. Jovanis. 2012. Crashes and Crash-Surrogate 
Events: Exploratory Modeling with Naturalistic Driving Data. Accident 
Analysis and Prevention, Vol. 45, pp. 507-516.
Committee Members
Committee Members in Attendance<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\*Unable to attend: Dan Blower, University of Michigan 
Transportation Institute, and Linda Boyle, University of Washington
---------------------------------------------------------------------------
Axdahl, Lee, South Dakota Department of Public Safety
Bishop, Richard, Bishop Consulting
Byrd, LaMont, International Brotherhood of Teamsters
Campbell, John, Battelle Memorial Institute
Clarke, Robert, R.M. Clarke Consulting
Ferro, Anne, American Association of Motor Vehicle Administrators
Garber, Nicholas, University of Virginia
Jovanis, Paul, Committee Chair, Pennsylvania State University 
(emeritus)
McCartt, Anne, Insurance Institute for Highway Safety (retired)
Collin Mooney, Commercial Vehicle Safety Alliance<SUP>**</SUP>
---------------------------------------------------------------------------
    \**\ Mr. Mooney resigned from the committee in January 2017.
---------------------------------------------------------------------------
Stern, Hal, University of California, Irvine
Thiese, Matthew, University of Utah
Van Dongen, Hans, Washington State University
Woodruff, Greer, J.B. Hunt Transport Services, Inc.

    The Chairman. Thank you, Doctor.
    Next I would like to welcome Dr. Jerry Moyes, retired as 
Chairman and CEO and President of Swift Transportation in 2016. 
He has extensive ties to the trucking industry, serving as Vice 
President of ATA, President of the Arizona Trucking 
Association, and as a board member of the Truckload Carriers 
Association.
    Welcome, sir.

         STATEMENT OF JERRY MOYES, CHAIRMAN EMERITUS, 
                  SWIFT TRANSPORTATION COMPANY

    Mr. Moyes. Thank you, Chairman Fischer, Ranking Member 
Booker, and other distinguished members of this subcommittee. I 
want to thank you for inviting me to testify here this 
morning--or this afternoon.
    My name is Jerry Moyes. I am the Founder of Swift 
Transportation. I started the company over 50 years ago with 
one beat-up old truck. I grew it into the largest truckload 
carrier in the United States and probably the world today. It 
was very difficult early on with regulations, the Interstate 
Commerce Commission, and a few things we don't have to deal 
with today, but a lot of financial challenges early on.
    But in 1990, we took the company public, and that was kind 
of the shot in the arm, and we told the Street that we felt 
that we could grow the company 10, 15, 20 percent a year 
through internal growth and through acquisitions. And over the 
next 15 years, we made--we grew it 25 percent both top line and 
bottom line per year, a very successful operation.
    But part of our growth was through acquisitions, and we 
made 12 acquisitions, but we probably looked at another 40 or 
50. And as we looked at these companies, we looked at, ``How do 
we improve them? What are we going to do differently to improve 
them?'' And one of the main lines that we always looked at was 
their insurance and claims, their safety. And in numerous of 
these 12 acquisitions that we made, almost all of them we felt 
that that was an area that we could come in and improve on that 
company. And that was one of the vital statistics that made us 
go into these acquisitions.
    So they were very successful. From 1966 to 1990, we grew 
about $150 million in revenue. From 1990 to 2005, the next 15 
years, we grew it to about $3.5 billion in revenue.
    And I can tell you from day one to today, safety has always 
been the number one criteria at this company, and it's largely 
the number one reason for the success that we have had. It's 
everyone's job at Swift to be very safety-minded, and that is 
always number one.
    Why is safety number one? We feel that we have an 
obligation to the driving community out there, to our drivers, 
and to our fellow employees to put not only the safest driver 
out there, but the safest equipment. Teach the driver the 
modern--how to be as safe as we can, but give him the best 
tools that we can do to do that.
    And at Swift, we have always been a pioneer in safety, and 
we're proud that we're always ahead of a lot of our 
competition, that it allowed us to grow the way we did. But 
just some of things that even back in 1980, we brought in 
what's called a trip recorder where we were starting to record 
the drivers and their activity and everything. And I was a 
driver back in them days, and the guys would give me a bad time 
about, ``What are we doing this for?'' and they would lose 
their little cassettes and all that stuff, but we started back 
then.
    We developed safety lanes to where we can--when we fuel a 
truck, we bring it in, we put a mechanic underneath to look at, 
what can be wrong underneath that system that we don't identify 
from a walk-around? So we put a creeper--or put a mechanic 
under every one of them. We feel that's very important. We've 
done that for a long time.
    Back in 1990, before that, we were about 50 doubles, 
pulling the 28-foot doubles, a truckload carrier, but when they 
went to the 53-foot trailers, we were able to switch to the 53, 
were permitted, as they become in all 48 states. And we learned 
very rapidly that the 53 was a much safer trailer than the 
doubles that we had been pulling.
    We had done a number of things, risk analysis, the lane, 
the stabilizing controls, but in 2010, 2010, we started 
electronic logs. And this was 7 years before they were 
mandated. So we've always tried to be ahead of the game.
    In 2013, we were very proud that we started with what's 
called a ``smart truck,'' the collision avoidance system, the 
lane departure systems. We went to the automatic transmission 
where the drivers could pay more attention to driving the 
truck, and it made it become a much safer truck. Today, we have 
almost 50 percent of our trucks that have that equipment on 
them. And I can tell you, over the next 2 years, we'll be at 
100 percent, with we call it the smart truck.
    In 2015, we went to the dash cameras, where it's picturing, 
in the case of a critical event, both the outside forward as 
well as looking at the driver. And we have seen tremendous 
success in that.
    So we've made a lot of improvements to safety, not because 
we're required by the government, but it is good business, and 
both from an obligation to the motoring public, but to our 
shareholders. It works both ways.
    So I'm very proud with our safe and our courteous drivers. 
And I really want to thank you for inviting me to this hearing.
    [The prepared statement of Mr. Moyes follows:]

         Prepared Statement of Jerry Moyes, Chairman Emeritus, 
                      Swift Transportation Company
    Chairman Fischer, Ranking Member Booker and distinguished members 
of the subcommittee, thank you for the opportunity to testify about 
``Continuing to Improve Safety on our Nation's Highways.'' My name is 
Jerry Moyes and I am the founder of Swift Transportation. Today I serve 
on its board of directors and as Chairman Emeritus.
    I started Swift 50 years ago driving a single truck. From the 
beginning safety has been critical to our success and growth. Just one 
accident is one too many. Today we are the largest truckload carrier in 
North America. This achievement was possible because of our culture of 
Safety First. Headquartered in Phoenix, Arizona, Swift operates in 48 
states, Mexico and Canada. Safety is the key to our success and a top 
priority in our operations.
    We operate about 18,000 trucks and generate over $4 billion in 
annual revenue. The fore-hire and private carriage truckload sector 
accounts for approximately 75 percent of all U.S. freight, measured by 
revenue. The next largest share is rail at about 8.5 percent followed 
by the less than truckload, or LTL, share at about 6.3 percent.\1\ 
Truckload carriers are by far the most common trucks you see on the 
road. We mostly operate tractors pulling single 53-foot-trailers.
---------------------------------------------------------------------------
    \1\ American Trucking Associations, U.S. Freight Forecast to 2027, 
Published 2016
---------------------------------------------------------------------------
    At Swift we believe safety is the responsibility of every level of 
management, from the Chief Executive Officer to every driver who gets 
behind the wheel. It is the responsibility of all managers to maintain 
high standards in employee selection and to provide a safe working 
environment, including continuous safety training, adhering to Company 
safety policies and procedures, and complying with federal, state, and 
local safety, health and environmental laws and regulations.
    Safety at Swift is no accident. Simply put, safety makes good 
business sense. We don't wait for the government to pass laws requiring 
safety improvements. Swift has a long track record of going above and 
beyond to provide our drivers with the safest equipment available. Here 
are just a few examples of how we have pioneered safety practices:

  <bullet> In the late 1980s we installed trip recorders to monitor 
        speed compliance at 57 mph.

  <bullet> We established in-house safety lanes where complete safety 
        inspections are performed while a truck is fueled. Think of it 
        like a NASCAR pit stop.

  <bullet> We shortened our stopping distances by improving our brakes 
        and using ABS braking systems.

  <bullet> We stopped using double 28-foot-trailers, which were less 
        safe than singles, once single 53-foot-trailers were permitted 
        nationwide. Once again, our experience is double 28s are less 
        safe than single 53 foot trailers which is consistent with 
        national data.\2\
---------------------------------------------------------------------------
    \2\ The 2000 U.S. DOT Comprehensive Truck Size and Weight Study 
found that multi-trailer trucks, primarily double trailer trucks, 
experienced an 11 percent higher overall fatal crash rate than single 
trailer combinations (vol. 3, pg. VIII -5).

  <bullet> We put reflective markings on our trailers long before they 
---------------------------------------------------------------------------
        were required.

  <bullet> In the 1990s the advent of electronic engines gave us the 
        ability to govern the speed of our trucks at 62 mph.

  <bullet> We pioneered using satellite communications in our trucks to 
        improve safety and efficiency.

  <bullet> In 2006 we developed a driver risk analysis system that 
        identifies safe drivers.

  <bullet> At the same time we deployed driver simulators to improve 
        driving skills and reinforce safe behavior.

  <bullet> In 2007 we added vehicle stability control to all of our new 
        trucks. We coupled this technology with our Qualcomm on board 
        communication system, which allows us to receive critical event 
        messages in real time. This allows us to quickly review with 
        drivers the behaviors that trigger critical events. Once again, 
        we led the industry in this safety practice.

  <bullet> We deployed electronic logs in 2010, a full 7 years ahead of 
        the government mandate.

  <bullet> In 2013 we began ordering all new trucks--known as Smart 
        Trucks--with sophisticated collision avoidance and lane 
        departure systems.

  <bullet> Less than two years ago we installed windshield-mounted 
        cameras that activate and record when a critical event occurs.

    I will repeat, we made these changes to improve safety for our 
drivers and the public because it made business sense and it was the 
right thing to do, not because we were required by the government.
    The trucking industry, led by groups like the Truckload Carriers 
Association and the American Trucking Associations, is committed to 
continually improving safety. For the record, the trucking industry 
annually invests at least $9.5 billion in safety. These investments 
include technologies, training, driver safety incentives, and 
compliance with safety regulations.\3\ Success in trucking is the 
ability to deliver freight from point A to point B and to do so safely.
---------------------------------------------------------------------------
    \3\ ATA's Safety Investment Study 2016, http://www.trucking.org/
---------------------------------------------------------------------------
    There is no place for drug or alcohol use in trucking. Swift 
supports the use of hair follicle testing, which is the most effective 
test for identifying a broad spectrum of drugs. The industry's alcohol 
use violation rate for 2014 was just .08 percent (i.e., eight-hundredth 
of one percent).\4\ The rate for drugs in 2014 was 0.9 percent (i.e., 
less than 1 percent).\5\ In 2015 only 2 percent of large-truck drivers 
involved in fatal crashes had a blood alcohol concentration (BAC) of 
.08 grams per deciliter (g/dl).\6\ These results are attributable to 
the industry's commitment to put safety first, with no tolerance for 
drugs or alcohol in the cabs of our trucks. Results such as these have 
placed Swift and like-minded carriers at the forefront of the industry.
---------------------------------------------------------------------------
    \4\ Results from the 2014 Drug and Alcohol Testing Survey, Federal 
Motor Carrier Safety Administration, October 2016, https://ntl.bts.gov/
lib/60000/60300/60335/16-005_b_-Drug_and
_Alcohol_Survey_2014-FINAL-508C.pdf
    \5\ Ibid.
    \6\ Quick Facts 2015, National Highway Traffic Safety 
Administration, December 2016, https://crashstats.nhtsa.dot.gov/Api/
Public/ViewPublication/812348.
---------------------------------------------------------------------------
    Several weeks ago Chris Lofgren from Schneider National appeared 
before this subcommittee. He did an excellent job describing key safety 
initiatives and successful results. Swift supports their testimony 100 
percent. While preparing for this meeting I reviewed the Insurance 
Institute for Highway Safety's website and discovered that Swift is 
perfectly aligned with their safety initiatives. In fact, some of our 
fleet of 60,000 trailers are testing bumpers for rear under ride guards 
that meet the standards specified by the IIHS's Tough Guard Award.
    Friends, motorists and public officials often compliment me on our 
drivers' behavior. Swift trucks stand out because our drivers stay in 
the slow lane, observe speed limits and are courteous.
    At Swift we are always looking for ways to improve highway safety 
for our drivers and the public. The last thing we want to do is make 
our operation less safe. I have heard Double 33 foot trailers described 
as the key to improved productivity, but we are not willing to trade 
safety for productivity. Based on our experience we have learned that 
single trailers are safer than doubles. I'm all for improving 
productivity and, if the committee is interested, I am happy to share 
my ideas on ways our industry can be more productive without 
compromising safety or causing further damage to the highway 
infrastructure.
    Chairman Fischer, Ranking Member Booker and other distinguished 
members of the subcommittee, thank you again for the opportunity to 
testify and provide Swift Transportation's perspective on increasing 
safety.

    The Chairman. Thank you, sir.
    Next we have Dr. Adrian Lund. Dr. Lund is President of the 
Insurance Institute for Highway Safety and the Highway Loss 
Data Institute. Trained as a psychologist, Dr. Lund has been 
involved in health-related research since 1974. He has studied 
youth drivers, substance abuse among drivers, and occupant 
restraints.
    Welcome, sir.

   STATEMENT OF ADRIAN K. LUND, Ph.D., PRESIDENT, INSURANCE 
                  INSTITUTE FOR HIGHWAY SAFETY

    Dr. Lund. Good afternoon, Chairman Fischer, Ranking Member 
Booker, and distinguished members of the Subcommittee. On 
behalf of the Insurance Institute for Highway Safety, I would 
like to thank you for this opportunity to talk about large 
truck safety.
    The Insurance Institute is a nonprofit research and 
communications organization dedicated to reducing the deaths, 
the injuries, and the property damage from motor vehicle 
crashes. We were established in 1959 and are wholly supported 
by auto insurers to provide objective information to help guide 
safe choices in transportation.
    IIHS has been studying large truck crashes for decades, and 
the results of that research can be seen on our website. But 
today my comments focus on our most recent truck research and 
some of the ways we might make trucks safer. These comments are 
detailed in my written testimony, but I'll try to summarize 
them briefly.
    First, as Ranking Member Booker pointed out, after several 
years of much lower death rates on our highways due to the 
recession, we are now seeing deaths increase in 2015 and 2016 
as the economy picks up steam. This is well known. The less 
well known is that this increase began in 2010 for fatal 
crashes of large trucks. In fact, since the depths of the 
recession in 2009, fatalities in large truck crashes have 
increased 22 percent versus only 4 percent for fatalities and 
all kinds of crashes. And it's important to remember that most 
of these deaths are occupants of passenger vehicles, whose 
smaller size and weight put them at a huge disadvantage in 
truck crashes.
    But this size and weight disadvantage does not mean that 
crashes and deaths are inevitable. Our recent research from 
North Carolina shows that the risk of large truck crashes 
varies greatly. Among the factors increasing crash risk were 
defective equipment, such as faulty brakes and lighting 
systems. Also, drivers who reported driving more than 12 hours 
since an extended sleep were almost twice as likely to crash as 
those awake for less than 8. Carriers with higher crash rates 
also were more likely to be involved in crashes.
    Our study also showed that there were factors that can 
reduce crash risk. Anti-lock braking systems, which have been 
required on new trucks since the 1990s, reduce the risk of 
crashing by 65 percent. Benefits were found for stability 
control systems, electronic logging devices, and speed 
limiters. These findings show the promise of technology in 
preventing truck crashes.
    Although not prevalent enough to be analyzed in this study, 
IIHS research has also noted that advanced driver assistance 
technologies, like forward-collision warning and automatic 
emergency braking, blind spot detection, and lane departure 
prevention could mitigate as much as 28 percent of all crashes 
involving large trucks.
    One of the things we could not study in the North Carolina 
research was the effect of speed. However, physics dictates 
that faster speeds result in more crashes and more severe ones 
no matter what the size of the vehicle, but for trucks, their 
greater weight compounds this issue. Even a lightly loaded 
40,000-pound truck has 13 times the kinetic energy of a 3,000 
pound car traveling at the same speed. And this proposal for 
speed limiters on large truck speeds is a welcomed attempt to 
mitigate this problem.
    Another key aspect of large truck crashes is that occupants 
of other smaller vehicles are often injured when they underride 
the truck. IIHS has shown that improved guards can prevent 
these underrides from the rear. We welcome NHTSA's proposal to 
strengthen the rear underride guard standard, but we also note 
that the proposed requirements already fall short of what 
trailer manufacturers can and are providing on new trailers.
    Chairman Fischer and other members of the Subcommittee, 
this concludes my oral remarks. And I would be happy to answer 
any questions the Committee might have.
    [The prepared statement of Dr. Lund follows:]

        Prepared Statement of Adrian K. Lund, Ph.D., President, 
                 Insurance Institute for Highway Safety

            What can be done to improve large truck safety?

    The Insurance Institute for Highway Safety (IIHS) is a nonprofit 
research and communications organization that identifies ways to reduce 
deaths, injuries, and property damage on our highways. We are supported 
by auto insurers. Thank you for the opportunity to testify on the 
safety of large trucks in the United States.
    Motor vehicle crash deaths have increased in recent years to the 
highest level since 2008, with 35,092 deaths in 2015.\1\ Of these, a 
total of 3,852 deaths involved crashes with large trucks. As the U.S. 
economy rebounded from recession, deaths in large truck crashes started 
to climb in 2009. What is especially concerning is that truck-related 
crash deaths are increasing faster than overall motor vehicle crash 
deaths. The number of people who died in large truck crashes was 22 
percent higher in 2015 than in 2009, while crash deaths overall rose 
less than 4 percent. The vast majority of people who die in crashes 
between large trucks and passenger vehicles are people in passenger 
vehicles. Preliminary data for 2016 indicate that the highway death 
toll is still on the rise, and we expect that trucks are contributing 
to this disturbing trend. A variety of countermeasures, both old and 
new, could address the problem.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Recent IIHS research--large truck crash factors
    IIHS has been studying serious crashes involving large trucks for 
decades, and, although some aspects have improved, unsafe trucks and 
tired truckers persist. A recent IIHS study examined the risk factors 
for large truck crashes, such as defective equipment, safety 
technology, and carriers' crash history.\2\
    Researchers compared large trucks involved in serious crashes in 
North Carolina during 2010-12 with a sample of similar trucks that 
weren't involved in crashes to estimate the relative prevalence of 
various factors and determine which ones are associated with increased 
crash risk.
    Nearly three-quarters of the crash-involved trucks had vehicle 
defects identified during a post-crash inspection. Trucks with 
violations for any type of defect were more than 3 times as likely to 
be in a crash as trucks without such violations. Violations for brake, 
tire, and lighting system defects also were associated with increased 
crash risk. Risk was greater for violations severe enough to place the 
truck out-of-service.
    Carriers with higher past crash rates were associated with an 
elevated current crash risk. Companies with at least 100 reported 
crashes per 1,000 power units (tractors or single-unit trucks) within 
the preceding 24 months had a 72 percent higher risk of crashing than 
carriers with fewer than 100 reported crashes per 1,000 power units.
    Looking at driver-specific factors, researchers found that truckers 
age 60 and older had a higher crash risk than drivers ages 30-59, who 
made up 72 percent of the crash-involved drivers in the study. Truckers 
who reported driving after at least 12 hours since an extended sleep 
period were 86 percent more likely to crash than drivers who had been 
awake for less than eight hours. Truckers who reported driving more 
than five hours without stopping were more than twice as likely to 
crash as those who drove 1-5 hours.
    Several safety features showed promise in reducing crash risk among 
the large trucks in the study. Antilock braking systems, which have 
been required since the late 1990s, reduced the risk of crashing by 65 
percent. Benefits were also found for electronic stability control 
(ESC) and roll-stability control, electronic logging devices and speed 
limiters.
    Vehicle stability control systems are designed to intervene when a 
truck's motion becomes unstable, possibly resulting in rollover, 
jackknife or other loss of control. ESC and roll-stability control are 
among the crash avoidance technologies that have been developed for 
large trucks. Others include forward collision warning/mitigation, 
blind spot detection, and lane departure warning/prevention. Based on 
an analysis of crashes during 2004-08, IIHS estimates that a 
combination of all four technologies could prevent or mitigate as many 
as 107,000 police-reported crashes each year, representing 28 percent 
of all crashes involving large trucks.\3\ The technology could prevent 
or mitigate as many as 12,000 nonfatal injury large truck crashes and 
835 fatal large truck crashes each year.
Speed
    Few things carry more potential risk than a semitrailer barreling 
down the highway at 80 mph. Extreme speeds have become commonplace as 
states have set higher and higher limits. These higher speeds are even 
more dangerous for heavier vehicles. Large trucks have longer stopping 
distances than other vehicles, making it more difficult for them to 
avoid a crash. When a crash does occur, it is likely to be more severe. 
Even a lightly loaded 40,000-pound truck has 13 times the kinetic 
energy of a 3,000-pound car traveling the same speed, and this energy 
increases with the square of the vehicle speed.
    Despite the deadly consequences of extreme speeds, the idea of 
lowering limits for all vehicles hasn't gained traction in state 
legislatures. Given this reality, we welcome the proposal by the 
Federal Motor Carrier Safety Administration (FMCSA) and the National 
Highway Traffic Safety Administration (NHTSA) to at least put a cap on 
the speeds of the biggest vehicles. Some critics of the proposed rule 
have raised concerns about different vehicles on the same road 
traveling at different speeds. But most trucks already travel at lower 
speeds on average than passenger vehicles. That is in part because many 
companies voluntarily use speed limiters to improve safety and fuel 
economy. In addition, seven states have lower maximum speed limits for 
trucks than for passenger vehicles.\4\
    However, a small number of trucks do travel at very high speeds, 
putting their drivers and the people in vehicles around them at grave 
risk. We recently studied the effect of raising speed limits from 75 to 
80 mph for all vehicles on certain road segments in Utah. We found that 
the proportion of large trucks exceeding 80 mph rose from 0.1 percent 
to 2.3 percent.\5\ While still a small number, every truck traveling 
that fast represents a big risk because it has 50 percent more energy 
to manage in an emergency than if it were traveling at 65 mph. Speed 
limiters that physically prevent trucks from traveling that fast are 
one way to make roads safer for everyone.
Underride guards
    Rear underride guards are important truck safety gear that is long 
overdue for an upgrade. An underride guard is the metal bumper that 
hangs from the back of a semitrailer. The idea is to stop a smaller 
vehicle from sliding beneath a high-riding trailer in a rear-impact 
crash. All underride guards must meet Federal safety standards, but 
IIHS research and crash tests have shown that many underride guards can 
buckle or break off in a crash. When guards fail, the resulting 
underride crashes often result in death or serious injury to people in 
passenger vehicles.
    In 2015, 427 of the 2,646 passenger vehicle occupants killed in 
large truck crashes died when the fronts of their vehicles struck the 
back of trucks.\6\ Gaps in Federal crash data make it difficult to 
pinpoint exactly how many of these crashes involve underride. An IIHS 
analysis of a smaller sample of fatal crashes involving the rear of a 
trailer equipped with an underride guard found that 94 percent produced 
underride.\7\
    NHTSA has proposed a rule that would upgrade the rear underride 
guard regulations for tractor-trailers, but the proposal does not go 
far enough to ensure the guards withstand vehicle impacts, especially 
in offset crashes.\8\ The proposal would align U.S. regulations with 
stricter ones in place in Canada since 2007. NHTSA estimates that 93 
percent of new semitrailers sold in the U.S. already comply with the 
Canadian rules, based on information from the Truck Trailer 
Manufacturers Association. The agency estimates the rule would save one 
life and prevent three serious injuries a year. Ahead of an updated 
U.S. standard, IIHS has been evaluating underride guard designs. Our 
crash tests show that compliance with the Canadian standard does not 
mean the guards will prevent underride when cars run into the outer 
ends of a trailer, where the underride guards are weakest.
    Trailer manufacturers have paid attention to our tests and have 
made significant improvements. To recognize their efforts, we created a 
new award for rear guards that successfully prevent underride in three 
progressively tougher test modes.\9\ We presented the IIHS TOUGHGUARD 
award in March to five North American semitrailer manufacturers. All 
the changes these manufacturers have made to improve performance in our 
tests exceed current rules in place in the U.S. and Canada, as well as 
NHTSA's proposed new requirements. Highway safety would be better 
served by regulations that require underride guards to withstand even 
the most extreme offset crashes, which NHTSA's proposal does not 
address.
Summary and conclusions
    Highway deaths have been on the rise as the economy has improved, 
but truck-related crash deaths are increasing faster than overall motor 
vehicle crash deaths. Vehicle defects, tired truckers and high travel 
speeds are factors that can influence the incidence and outcome of 
large truck crashes. Making sure that equipment is in good working 
order, drivers are properly rested, and truck speeds are reduced are 
important steps that would improve the safety of all road users. Strong 
rear underride guards are another lifesaving measure that should not be 
overlooked.
References
    1. Insurance Institute for Highway Safety. 2017. Fatality facts: 
yearly snapshot, 2015. Arlington, VA. Available: http://www.iihs.org/
iihs/topics/t/general-statistics/topicoverview.
    2. Teoh, Eric R.; Carter, Daniel L.; Smith, Sarah; McCartt, Anne T. 
Crash risk factors for interstate large trucks in North Carolina. 
Insurance Institute for Highway Safety. September 2016.
    3. Jermakian, J. S. 2012. Crash avoidance potential of four large 
truck technologies. Accident Analysis and Prevention 49:338-46.
    4. Insurance Institute for Highway Safety. 2017. State laws: speed 
limits. Arlington, VA. Available: http://www.iihs.org/iihs/topics/laws/
speedlimits.
    5. Wen, Hu. Raising the speed limit from 75 to 80 mph on Utah rural 
interstates: effects on vehicle speeds and speed variance. Insurance 
Institute for Highway Safety. May 2016.
    6. Insurance Institute for Highway Safety. 2017. Fatality facts: 
yearly snapshot, 2015. Arlington, VA. Available: http://www.iihs.org/
iihs/topics/t/large-trucks/fatalityfacts/large-trucks.
    7. Brumbelow, M.L. and Blanar, L. 2010. Evaluation of U.S. rear 
underride guard regulation for large trucks using real-world crashes. 
Report no. SAE 2010-22-0007. Proceedings of the 54th Stapp Car Crash 
Conference, 119-31. Warrendale, PA: Society of Automotive Engineers.
    8. Insurance Institute for Highway Safety. 2016. ``U.S. can do 
better than simply adopt Canada's rear underride guard standard.'' 
Status Report 51:2. Available: http://www.iihs.org/iihs/sr/
statusreport/article/51/2/3.
    9. Insurance Institute for Highway Safety. 2017. ``IIHS recognizes 
trailers with good underride guards.'' Available: http://www.iihs.org/
iihs/news/desktopnews/iihs-recognizes-semitrailers-with-good-underride-
guards.
                               Attachment
                               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Doctor.
    Before we begin our questions, I would ask unanimous 
consent to insert a couple letters for the record from various 
industry and safety stakeholders. One is from Advocates for 
Highway and Auto Safety, and the other is Property Casualty 
Insurers Association of America.
    Without objection, so ordered.
    [The information referred to follows:]

                      Advocates for Highway and Auto Safety
                                                     March 13, 2017

Hon. Deb Fischer, Chair,
Hon. Cory Booker, Ranking Member,
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairwoman Fischer and Ranking Member Booker:

    Advocates for Highway and Auto Safety (Advocates) commends the 
Subcommittee for convening tomorrow's hearing, ``Continuing to Improve 
Truck Safety on our Nation's Highways.'' We respectfully request that 
this letter be included in the hearing record.
    Current trends show that truck crashes are too frequent and too 
often are fatal and that there is an urgent need for overdue and 
important motor carrier safety improvements. In 2015, 4,067 people were 
killed in crashes involving large trucks. According to U.S. Department 
of Transportation (U.S. DOT) data, this is an increase of more than 4 
percent from the previous year and a 20 percent increase from 2009. 
Furthermore, this is the highest fatality number, and the first time 
truck crash deaths have exceeded 4,000, since 2008. Truck crash 
injuries are also rising significantly. In 2015, 116,000 people were 
injured in crashes involving large trucks. This is the highest number 
of injuries since 2004, and over the past five years (since 2009) there 
has been a 57 percent increase in the number of people injured in large 
truck crashes. Additionally, truck crashes have severe economic 
consequences. The cost to society from crashes involving commercial 
motor vehicles has been estimated to be $112 billion in 2014.
    The U.S. Department of Labor has consistently ranked driving a 
truck as one of the most dangerous jobs in America. However, the safety 
of large trucks affects all Americans, not just those who work in the 
industry. In fatal two-vehicle crashes between a large truck and a 
passenger motor vehicle, 97 percent of the fatalities were occupants of 
the passenger vehicle.
Needed Commercial Motor Vehicle Safety Improvements
    Prevent Further Rollbacks, Repeals and Raids of Existing Motor 
Carrier Safety Laws, Programs & Regulations: As part of the Fixing 
America's Surface Transportation Act (FAST Act, Pub. Law 114-94), 
safety scores in the Compliance, Safety, Accountability (CSA) program 
for trucks were removed from public view. Real-time safety data on 
trucking companies should be made available to consumers and not hidden 
from the public. Secrecy only serves to protect unsafe carriers and 
will perpetuate unsafe practices.
    Bigger trucks are bigger safety problems on our streets and roads. 
Advocates strongly opposes special interest exemptions to Federal truck 
size and weight limits. For this reason, we strongly oppose any 
exemptions for specific state roads or industries that further erode 
Federal limits. Overweight and oversized trucks are extremely dangerous 
to motorists and cause excessive damage to our badly deteriorated roads 
and bridges. According to the 2017 Infrastructure Report Card just 
released by the American Society of Civil Engineers, one out of every 
five miles of highway pavement is in poor condition and 23 percent of 
our bridges are structurally deficient or functionally obsolete.
    Furthermore, Advocates objects to any Federal mandate that allows 
for double 33 foot trailer trucks in every state. A ``Double 33'' is a 
truck pulling two trailers with a total length of at least 84 feet--the 
height of an 8-story building. A Federal mandate will preempt laws in 
states that currently do not want Double 33s. In countless public 
opinion polls, there is consistent and substantial opposition to 
bigger, heavier and longer trucks no matter the state, political 
affiliation, age or race of poll respondents.
    Additionally, truck driver fatigue has been a well-known, well-
studied and well-documented safety problem for decades. In a 2006 
driver survey prepared for the Federal Motor Carrier Safety 
Administration (FMCSA), 65 percent of drivers reported that they often 
or sometimes felt drowsy while driving and almost half said they had 
fallen asleep while driving in the previous year. The recent FMCSA 
study on the HOS safety reforms instituted by the Obama Administration 
was fatally flawed from the start. Special trucking interests opposed 
to this commonsense proposal to give truck drivers two nights off after 
exceedingly long weekly working and driving hours stacked the deck with 
requirements for unreasonable, unrealistic and unattainable parameters. 
Moreover, the U.S. DOT Inspector General made no conclusions whatsoever 
regarding the safety benefits of the Obama HOS reforms but merely 
rubberstamped the process that produced the defective study. Suspension 
of the Obama HOS safety reforms will perpetuate driver fatigue and will 
lead to more deaths on our Nation's roads. Advocates opposes all 
exemptions to critical aspects of HOS rules which prevent driver 
fatigue.
    Direct NHTSA to Issue Standards for Automatic Emergency Breaking 
(AEB), Lane Departure Warnings Systems and Other Crash Avoidance 
Technologies for Commercial Motor Vehicles (CMVs): Equipping commercial 
motor vehicles (CMVs) with crash avoidance technologies such as 
Automatic Emergency Breaking (AEB) will undoubtedly save lives and 
prevent crashes. Based on NHTSA data from 2003 through 2008, large 
trucks are the striking vehicles in approximately 32,000 rear-end 
crashes resulting in 300 fatalities and injuring over 15,000 people 
annually. NHTSA estimates that, in the future, more advanced AEB 
systems could save 166 lives per year, a reduction of 57 percent from 
current annual fatalities, and prevent 8,361 injuries per year, a 
reduction of 56 percent, in certain types of crashes. In 2015, NHTSA 
granted a petition for rulemaking filed by Advocates and other safety 
organizations, but the agency has not yet initiated rulemaking. NHTSA 
should issue a safety standard requiring AEB technology on CMVs. In 
addition, research has also shown that lane departure warning systems 
have the potential to substantially reduce crashes. These systems, 
along with other crash avoidance technologies that are proven to 
improve safety, should be standard equipment in all CMVs.
    Require Speed Limiting Devices on All Large CMVs: Currently, speed 
limiting technology is already installed on many large CMVs that limit 
the speed the truck or bus can travel. Speed limiting devices have been 
required to be installed on trucks throughout the world. The European 
Union, Australia, and Japan all require speed limiters on large trucks. 
A 2012 study commissioned by FMCSA showed ``strong positive benefits 
for speed-limited trucks.'' In fact, the study found that trucks not 
equipped with a speed limiting device had a speed-limited-relevant 
crash rate that was nearly two times higher than those trucks equipped 
with the device. However, FMCSA and NHTSA have proposed a weak 
regulation to require only new CMVs with a gross vehicle weight rating 
(GVWR) of more than 26,000 pounds to be equipped with a speed limiting 
device. The proposed rule is needlessly narrow and should apply to all 
large CMVs on the road and not just new trucks.
    Upgrade the Rear Underride Guard Standard and Require Side Guards 
for Large Trucks: According to NHTSA, annually there are 72 light 
vehicle occupant fatalities in crashes into the rear of trailers with 
rear impact guards with passenger compartment intrusion. NHTSA has 
proposed to update the current standard for underride guards that went 
into effect 20 years ago to match the Canadian standard that went into 
effect in 2007. However, test results show that rear underride guards 
that exceed the Canadian standard are already available and currently 
in use. It doesn't make safety sense for the agency to require an 
inadequate and ineffective rear underride guard. Also, NHTSA has yet to 
issue a rule requiring side underride guards although they are used by 
industry and in other countries throughout Europe.
    Oppose Teen Truck Drivers: We strongly object to any expansion of 
the pilot program established by the FAST Act that permits veterans of 
the armed forces or members of reserve units who are ages 18-20 and are 
trained in a Military Occupational Specialty to operate a CMV or 
similar vehicle in interstate commerce. FMCSA should be directed to 
conduct a study of the safety performance of CMV drivers age 18-20 that 
currently operate in intrastate commerce. The minimum age for obtaining 
a commercial driver license (CDL) should not be reduced without a 
thorough study and evaluation of the safety performance of intrastate 
truck drivers under the age of 21.
    Address Persistent Backlog of Overdue Motorcoach Safety Rules 
Required by Congress: During the early morning hours of March 2, 2007, 
on Interstate 75 in Atlanta, Georgia, a motorcoach carrying members of 
the Bluffton University baseball team crashed killing five players and 
two other occupants. This horrific event, as well as other similar 
tragedies, spurred Congress to finally act to improve motorcoach 
safety. The safety deficiencies of motorcoaches identified in countless 
recommendations and crash investigations by the National Transportation 
Safety Board (NTSB) languished for years, even decades, until deadlines 
for agency action were enacted in the Moving Ahead for Progress in the 
21st Century Act (MAP-21, Pub. Law 112-141). Yet, as evidenced by the 
recent motorcoach crash in Biloxi, Mississippi, which killed 4 
individuals and injured dozens more, riding a bus is still too 
dangerous and it is unacceptable to continue to put motorcoach 
occupants at risk. Although the ten year anniversary of the Bluffton 
University recently passed, NHTSA has yet to complete several of the 
lifesaving rulemakings required by MAP-21 despite a Congressional 
deadline of October 2014. The agency must finish these actions without 
further delay.
Conclusion
    Before today is over at least 10 people will needlessly die in a 
truck crash. Annual truck crash fatalities are equivalent to a major 
airplane crash every other week of the year. There are cost-effective 
solutions at hand to improve the dismal truck safety record but 
congressional leadership is needed to stop special interest attacks on 
safety rules, to monitor the agency's programs and priorities as well 
as to mandate overdue and critical regulatory advances.
            Sincerely,

Jacqueline S. Gillan
President
  
Joan Claybrook
Consumer Co-Chair
Former Administrator, NHTSA

cc: Members of the Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety, and Security
                                 ______
                                 
                                 Property Casualty Insurers
                                     Washington, DC, March 13, 2017
Hon. Deb Fischer,
Chairman,
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security,
Senate,
Washington, DC.
Hon. Cory Booker,
Ranking Member,
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security,
Senate,
Washington, DC.

Dear Chairman Fischer and Ranking Member Booker:

    The Surface Transportation Subcommittee has scheduled a hearing on 
truck safety advancements resulting from the Fixing America's Surface 
Transportation (FAST) Act and potential reforms moving forward. As 
insurers of both the trucks that move everything Americans buy and the 
cars that share our roads with them, the Property Casualty Insurers 
Association of America thanks the Committee for holding this hearing 
and offers some thoughts on improving highway safety.
    Over the last few years, both the frequency and economic severity 
of highway accidents have increased. Several trends appear to be 
combining and magnifying their individual impacts. Among the most 
disturbing is the increasing frequency of distracted driving, 
especially related to smart phone use. Drivers must realize that no 
text is worth risking lives to answer while driving, yet the problem 
continues to worsen.
    Other trends with compounding safety impacts include increased road 
congestion as more vehicles share limited and deteriorating highway 
infrastructure. Decriminalization of marijuana has led to more 
incidents of driving under the influence of that drug. Even distracted 
walking has become significant, with people literally walking into 
moving vehicles because they are so engaged in their smart devices.
    At the same time, several trends are increasing the cost severity 
of highway accidents. Medical inflation increases the cost of treating 
accident injuries just as it increases the cost of treating diseases. 
New safety systems help save lives but make cars and trucks much more 
expensive to repair following accidents. Lawsuits target truck owners, 
even though most car-truck accidents are caused by car drivers, putting 
upward pressure on the cost of running these businesses, which pushes 
up the consumer cost of the goods these trucks carry.
    One action the Committee can take immediately is to follow up on 
the FAST Act provisions to improve the Compliance, Safety 
Accountability (GSA) Program and make sure that all phases of the 
study, report and improvements are completed as soon as possible. Those 
improvements should include increased access to GSA information for 
insurers to accurately evaluate the safety of motor carriers and their 
drivers.
    PCI supports highway safety improvements, many of which are simply 
common-sense. All vehicle occupants should wear safety belts to let the 
vehicle's safety technology protect them. Another example, that also 
highlights the power of the free market, is the Insurance Institute for 
Highway Safety's work with trailer manufacturers to improve trailer 
underride guards, to prevent cars from sliding under trailers during 
rear-end collisions. A third example would be creating the same kind of 
stigma against texting while driving that exists against drunk driving.
    These and other safety improvements can do a lot to improve safety 
on our Nation's roads. This hearing will provide important support for 
those safety efforts.
            Sincerely,
                                        Nathaniel Wienecke,
                                             Senior Vice President,
                                          Federal Government Relations.
                                 ______
                                 
  Alliance for Driver Safety & Security (Trucking Alliance)
                                     Washington, DC, March 14, 2017

Hon. Deb Fischer, Chair,
Hon. Cory Booker, Ranking Member,
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairwoman Fischer and Ranking Member Booker:

    You and your fellow committee members are to be commended for 
convening today's hearing, entitled ``Continuing to Improve Truck 
Safety on our Nation's Highways.'' Many Senators attended the hearing 
and we are particularly proud of the testimony given by Mr. Jerry 
Moyes, Chairman Emeritus of Swift Transportation, as his company 
recently became a member of the Trucking Alliance. We respectfully 
request that this letter be included in the hearing record.
    About the Trucking Alliance: The Alliance for Driver Safety & 
Security, also known as The Trucking Alliance, is a leading proponent 
of safety reforms in the freight transportation industry, which 
supports policies to:

  <bullet> Increase the safety and security of commercial truck 
        drivers,

  <bullet> Reduce both the number and severity of large truck 
        accidents, and

  <bullet> Improve highway safety for the general public, who share the 
        road with the freight transportation industry.

    To achieve these objectives, all Trucking Alliance companies adopt 
core principles of operation within their businesses, all of which 
exceed minimum Federal requirements to operate as a motor carrier.
    These Trucking Alliance core principles are:

  1.  Electronic Logging Devices (ELDs)--Have certified ELDs installed 
        in all interstate trucks to verify hour-of-service compliance.

  2.  Truck Speed Limiters--Regulate trucks with speed limiters at a 
        maximum speed of no more than 65 mph.

  3.  Hair Testing--Recognize hair testing as an alternative to a urine 
        exam, in conforming to federal commercial driver pre-employment 
        drug testing processes.

  4.  Public Liability Insurance--Support for increased insurance 
        levels for motor carriers, in order to adequately cover the 
        medical expenses incurred by victims of large truck accidents, 
        while also supporting reasonable state-based tort reform 
        measures.

  5.  Onboard Truck Safety Technologies--Install collision mitigation 
        systems on all new interstate trucks purchased.

  6.  Driver Hiring and Training Programs--Utilize extensive pre-
        employment screening and conduct continuing driver training 
        that exceed Federal standards.

    Trucking Alliance companies collectively employ 68,000 professional 
drivers, management and logistics personnel in 49 states, who utilize 
52,000 trucks and 175,000 semitrailers and containers, to safely and 
efficiently deliver products throughout North America.
    Importance of Continuing Truck Safety Reforms: The Federal Motor 
Carrier Safety Administration (FMCSA) regulates the commercial trucking 
industry. The FMCSA's primary mission is to reduce crashes, injuries 
and fatalities involving large trucks and buses.
    The FMCSA's mission is critical to public safety and Congress must 
support the agency's efforts to continue achieving its mission. 
Consider that the commercial trucking industry delivers more than 13 
billion tons of freight across America's highways each year. Yet, as 
essential as the industry is to the standard of living we enjoy, large 
trucks are involved in too many accidents, injuries and fatalities.
    For example, in 2015, according to U.S. Department of 
Transportation (USDOT) data, there were 414,598 large truck accidents 
on U.S. roadways, in which 116,000 people were injured and 4,067 people 
lost their lives. Of these fatalities, 594 were commercial truck 
drivers. Our industry cannot tolerate such tragic numbers each year.
    That's why the Trucking Alliance urges Congress to support the 
following FMCSA proposed rules and regulations, all of which can help 
reduce large truck crashes:

    Implement the Electronic Logging Device Mandate: In 2012, Congress 
mandated that all commercial trucks install electronic logging devices 
(ELDs) to verify a commercial driver's hours-of-service rules. The 
FMCSA has promulgated regulations to implement this congressional 
mandate by December 17, 2017. Truck driver fatigue is a major factor in 
large truck accidents and ELDs will help ensure that drivers comply 
with the law and don't exceed their hours behind the wheel. Congress 
must make sure that any effort by industry groups to stop, reverse, or 
delay the ELD mandate are denied.
    Grant a ``Petition for Exemption'' to Recognize Hair Tests for Pre-
Employment Commercial Driver Drug Test Requirements: Section 5402 of 
the ``Fixing America's Surface Transportation Act,'' (FAST Act) 
contained a provision that directed the Department of Health and Human 
Services (HHS) to issue scientific and technical guidelines for hair 
testing, as a method to detect controlled substance abuse. After these 
HHS guidelines are adopted, FMCSA should initiate a rulemaking to 
permit hair testing as an acceptable alternative to urine testing for 
commercial driver drug testing requirements.
    But before FMCSA completes this rulemaking, the FMCSA Administrator 
should grant a Petition for Exemption recently filed by several 
carriers that currently utilize hair testing for pre-employment 
purposes. Hair testing is a more reliable (albeit twice as expensive) 
method for identifying lifestyle drug users, rather than the less 
expensive and less reliable urine exam. If granted, these petitioners 
may use a hair analysis, rather than spending unnecessarily on a second 
urine exam, to meet Federal drug test requirements for commercial 
driver job applicants, while FMCSA completes its rulemaking.
    Require Speed Limiters on Commercial Trucks: FMCSA has proposed 
that large commercial trucks be equipped with a speed limiting device. 
The Trucking Alliance supports a Federal regulation to require that all 
commercial trucks of the specifications proposed, whether engaged in 
interstate or intrastate commerce and whether new or old, be equipped 
with a truck speed limiter device. Further, the Trucking Alliance 
supports a truck speed limiter rule in which the maximum speed setting 
is no more than 65 mph.
    Reduce the Price of the Federal Pre-Employment Screening Program 
(PSP): The FMCSA created the PSP to help carriers make more informed 
hiring decisions, by providing secure, electronic access to the FMCSA's 
commercial driver's five-year crash and three-year inspection history.
    However, less than 1 percent of the industry utilizes these 
reports. This is because the third party contractor that implements the 
program charges $10 per report, a fee that is cost-prohibitive to many 
motor carriers and more than twice the price that the contractor 
originally promised, once its start-up costs were recovered. The FMCSA 
should renegotiate the PSP fee to encourage more industry participation 
and help carriers make more informed hiring decisions.
    Increase Minimum Financial Requirements for Motor Carriers: In 
2012, the ``Moving Ahead for Progress in the 21st Century Act'' or MAP-
21, authorized the Secretary of Transportation to evaluate whether the 
minimum financial requirements for motor carriers, set at $750,000 in 
1980, should be increased. Further, Section 32104 of MAP-21, also 
directed the Secretary to issue a report on the appropriateness of 
these requirements, every 4 years, starting April 1, 2013, meaning that 
the Secretary should issue an updated report this year.
    The Trucking Alliance maintains that a motor carrier should be 
sufficiently insured to compensate the victims of truck accidents, as 
Congress set forth when it set the minimum insurance requirements more 
than 35 years ago. These minimum insurance limits have not been 
increased since, and are inadequate to meet the purposes for which 
Congress intended. These minimum insurance requirements should be 
increased.
    In Conclusion: The Trucking Alliance carriers embrace the ``Road to 
Zero'' national initiative. Sponsored by the National Highway Traffic 
Safety Administration, FMCSA, and the National Safety Council, this 
campaign will utilize private and public sectors to design plans to 
fully eliminate all highway accident fatalities, including large truck 
crashes.
    More safety reforms should be adopted, not only to ensure the 
greater safety and security of commercial drivers but the general 
public. The commercial trucking industry has a moral and ethical 
responsibility to fully eliminate fatalities and injuries caused by 
large truck crashes and to achieve a safety performance record equal to 
the commercial airline industry.
    Madame Chairperson and Ranking Member Booker, your committee has a 
critically important role to help this industry achieve that worthy 
goal.
            Sincerely,
                                        Lane Chandler Kidd,
                                                 Managing Director,
         Alliance for Driver Safety & Security (The Trucking Alliance).

    The Chairman. Thank you. And with that, I will turn to our 
first questions.
    Dr. Jovanis, yesterday, the TRB released a report of the 
Motor Carriers Safety Research Analysis Committee, and the TRB 
recommended that FMCSA aggregate and integrate enhanced crash 
data, such as time of day or crash location. Can you please 
explain the benefits of enhanced data to how FMCSA allocates 
its resources and targets its safety initiatives, please?
    Dr. Jovanis. Well, speaking in general, the location in 
which crashes occur have historically been an important 
contributing factor in the event occurring at all. So not 
having detailed information about the characteristics of the 
site in which crashes occur allows us to only get a partial 
view of what factors may be contributing, and that biases us in 
terms of considering potentially effective countermeasures to 
improve safety at those locations. So location and time of day 
are really kind of essential building blocks for any road 
safety study.
    The Chairman. Is that used now?
    Dr. Jovanis. It's used on the highway side extensively, but 
inconsistently in the datasets that are provided from a variety 
of sources that FMCSA uses. And I would say we probably had 
four or five committee members from different perspectives and 
different technical backgrounds all strongly support the idea 
of developing this annualized consistent provision of a 
database that would provide useful information about heavy 
vehicle truck and bus crashes.
    And we understand the difficulties of doing it, but we have 
some very specific recommendations in the report that kind of 
provide some leading indicators to areas where we might begin 
the discussion. And we look forward to meeting with FMCSA and 
talking in more detail about how this could be eventuated.
    But the idea of FMCSA does not currently have an annual 
inventory of data available on large truck and bus crashes in 
detail that can be used by outside agencies, researchers from 
universities, and other kinds of organizations. And our 
committee feels pretty strongly that that would be a benefit.
    The Chairman. Thank you.
    And, Captain Turner, in your written testimony, you discuss 
the importance of fully funding the streamlined Motor Carrier 
Safety Assistance Program grants at the FAST Act levels. Can 
you provide an example for the Subcommittee on the challenges 
that local law enforcement officers will face if the matter is 
not corrected if it's not funded?
    Captain Turner. And I'll speak on behalf of the Kansas 
Highway Patrol in answering your question. We had one division, 
our Breath Alcohol Unit, in part moved out from underneath our 
command because it was no longer tenable to be able to support 
that group with the funding, and that was about eight 
positions.
    Additionally, we had another three positions that we've 
been unable to fill. So, number one, to answer your question, 
we experienced some jobs lost and the inability to refill those 
positions. And I can tell you that it's not a one year issue. 
It's not if the money comes back next year that we'll 
immediately be able to fill those positions.
    Traditionally, state agencies will reallocate those 
resources to other enforcement endeavors, and it takes years to 
build that program back up and make sure those state agencies 
have the confidence that that money will be there and that 
we'll have the stability to be able to fund those positions and 
put people in those positions and either provide that education 
and outreach or the enforcement.
    So we'll lose two things, one is jobs lost, and then 
ultimately we're also going to lose the program outcomes, 
whether it's educational programs or the enforcement. And in 
speaking to my colleagues throughout the Nation, they're 
experiencing those same difficulties and challenges.
    We formulate our budgets a year in advance, and we already 
have the outcomes that are expected of us, and now we have the 
outcomes expected without the resources to be able to complete 
those outcomes.
    The Chairman. So in your outcomes that you expect and that 
you've published, how does that jive with what's happened? 
You've lost jobs, you've seen limits in the education services 
that you can provide. So have you reached your outcomes? Do you 
have the data for that right now?
    Captain Turner. Not yet. We haven't been able to complete 
the year yet, but I can tell you that we've had to divert 
resources. And just as an example, the jobs lost is obviously 
one of the most striking things for us because those are 
difficult to refill, but some of the very first programs you 
lose are your educational programs. So what we lose is the 
positive interaction with drivers and the trucking industry, 
whether it's through our associations or through their truck 
driving championships and those things where we bring them 
together in a positive environment, and you end up with just an 
inspection-related situation where there's always tension.
    I mean, obviously, it tries to go well, but you have a 
driver and carrier trying to get somewhere and affecting their 
bottom line, and you have an inspector or enforcement officer 
trying to determine whether or not there are any violations. 
And that, even in the best case scenario, is still tenuous. So 
we lose that positive outcome as well.
    The Chairman. Thank you.
    And, Mr. Moyes, can you discuss how Swift is investing in 
new and advanced technologies to advance safety? And in 
particular, can you tell us more about the smart trucks that 
you mentioned in your testimony and the advanced technology 
equipped on those trucks?
    Mr. Moyes. Well, as I stated, Chairman, in 2013, as I 
stated, in 2013, we started bringing these new trucks in. We're 
on a 4-year trade cycle, so it's kind of hard to replace 18,000 
trucks any sooner than that. And we're seeing tremendous 
improvement in our safety.
    And also they're improving on their technology. The 
collision avoidance systems, the first 2 years would not detect 
anything but metal, a deer or something like that it wouldn't 
detect. Well, the new ones do. So not only are we trying to 
keep up on technology, they're helping us with better 
technology.
    In 2015, we went to the dash camera, and we've seen great 
improvement on that, but here we are just 2 years later, and 
we're already--we've got better technology. We're behind the 
system on just something we just got a year ago. So we agreed 
to keep it on the edge of technology because it's good for the 
public and it's good for our shareholders.
    The Chairman. Thank you, sir.
    Senator Booker.
    Senator Booker. Chairman Fischer, if it's OK with you, I 
would like to yield my time to Senator Blumenthal, and I'll 
jump to the end of the line.
    The Chairman. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you very much, Madam Chairwoman.
    I want to begin by thanking you for being here today and 
thank my colleague, Senator Wicker, for his work in trying to 
protect our roads and drivers and passengers from double 33s, 
which pose a clear danger to not only safety, but the well-
being of our infrastructure. At a time when we are debating how 
to safeguard and enhance our infrastructure, these double 33s 
in fact would exact a toll of $1.1 billion, according to the 
United States Department of Transportation in a 2015 study.
    Let me ask you, Mr. Moyes, you have stated that your 
priority is safety and that's why your company no longer drives 
doubles, even double 28s. Are you concerned about the deadly 
toll that double 33s would take if they were instituted?
    Mr. Moyes. Yes. In my testimony, I state that approximately 
78 percent of the trucks on the road today are what we call the 
truckload industry, and almost all of them are pulling the 53-
foot trailer. If the 33 was allowed, that would make it 66. So 
as we compare a 53 to a 66, it would force our industry to go 
at least 50 percent to the 33-foot trailers. Number one, we've 
very concerned about the safety, the work comp, the work comp 
was considerable higher. The drivers don't like to pull them. 
So there are a lot of disadvantages to it.
    But also the capital investment in this thing. If we had to 
change--you know, we run 60,000 trailers, and if we had to 
change half the fleet to the twin3s, we would have a huge 
capital change, and that's money that we couldn't be using in 
other sources of improving technology also. So thank you. I 
hope that answered.
    Senator Blumenthal. Exactly. A number of you have talked 
about driver fatigue as a potential safety threat. Any of us 
who have been on this committee have heard that kind of remark 
again and again and again, and yet what we have found across 
the country, and including Connecticut, where a lot of our rest 
stops are along our interstates, is that there is pressure, in 
fact, to reduce the size and sometimes eliminate those rest 
stops.
    Mr. Moyes, let me ask you, and then perhaps others on the 
panel, has lack of available safe truck parking, particularly 
overnight parking, impacted Swift's drivers? And during your 
years as a driver, did you ever experience a situation where 
you had to park somewhere that you felt was unsafe simply to be 
properly rested to safely drive?
    Mr. Moyes. Well, back when I used to drive I don't think we 
had rest areas, but that's a different story.
    [Laughter.]
    Mr. Moyes. So, yes, the need for rest areas is considerable 
out there today. A lot of states, when they went through the 
slow economy, have shut down rest areas, and it is extremely 
critical that they become more--we get more of them out there. 
A lot of this has fallen to the truck stops now. They have 
expanded. You can call and get reserved places for parking, but 
that's kind of a Band-aid to the problem, but there is 
certainly a huge need for additional rest areas.
    Senator Blumenthal. The availability of those rest areas is 
critical to the safety of the driver, but even more so, the 
motoring public because if they are unrested, they pose a 
threat to everybody.
    Mr. Moyes. Not only that, they park in areas that might not 
be the most safest area, you know, along the roadsides, at 
exits, and stuff, that might not be the safest place to be 
parking.
    Senator Blumenthal. So you would urge states to make them 
more available, would you not?
    Mr. Moyes. Correct.
    Senator Blumenthal. Any other members of the panel have 
comments on this issue?
    [No response.]
    Senator Blumenthal. Thank you, Madam Chairwoman.
    The Chairman. Thank you, Senator.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you. And thank you to members of the 
panel. Let me follow up then on Senator Blumenthal's question 
with regard to the twin3 trailers. For those who weren't able 
to follow the debate we had 2 years ago in the Senate, a twin3, 
it is a truck tractor pulling two 33-foot trailers, for a total 
truck trailer combination length of at least 84 feet and the 
height of an 8-story building.
    Now, there are some people who have proposed a Federal 
mandate for double 33s as opposed to the current system we 
have, where states get to choose. A Federal mandate would 
preempt laws of states that do not want them on the road, 
overriding state legislative decisions to protect public 
safety.
    What we do know is this, double-trailer trucks have an 11 
percent higher fatal crash rate than single-trailer trucks. We 
also know, from information provided to us by the Committee, 
that recent data show that in 2015, the number of large trucks 
involved in fatal crashes increased by 8 percent, large trucks. 
And then we learned from testimony today from Dr. Lund that the 
number of people who have died in large truck crashes was 22 
percent higher in 2015. So this has been a helpful hearing in 
that respect.
    Now, Mr. Moyes, it's not just your company--and remind us 
again about the size of your company and the number of trucks 
that Swift employs.
    Mr. Moyes. We run about 18,000 trucks driving five to six 
million miles every day.
    Senator Wicker. And you started off driving your own truck 
and built it to that.
    Mr. Moyes. Yes.
    Senator Wicker. It's not just you, though, it's 14 other 
trucking firms that have submitted a letter to the Senate 
opposing the use of double 33s and citing issues of safety and 
damage to infrastructure. Is that correct?
    Mr. Moyes. Yes.
    Senator Wicker. Now, I think you've adequately explained 
the industry concerns. And let me make sure I understand, your 
personal history in terms of your company, you were driving the 
twin 28s in your company, and you decided to go to the 53-foot 
single trailers. Is that correct?
    Mr. Moyes. Yes, that is correct.
    Senator Wicker. And, of course, that involved quite an 
investment no doubt. But you also concluded that it was safer, 
that these 53-foot trailer, tractor trailer rigs were safer. Is 
that correct?
    Mr. Moyes. Yes, that was the number one issue.
    Senator Wicker. And can you talk about the operation of the 
doubles in traffic with merging and passing and intersections 
and dealing with other traffic?
    Mr. Moyes. Well, it is considerably more at risk or 
complicated, especially, you know, if you're trying to pass a 
trailer that, you know, that's 84-foot long, or longer than a 
53 with a tractor, you know, it's just considerable more risk 
in the passing. The intersections would be, you know, kind of 
the same situation.
    Senator Wicker. And your testimony is that if the Federal 
Government goes in and tells states they can't make their own 
decisions here, that people like your company will be forced 
economically to massively go to these twin 33s, and so there 
would be a massive amount of new twin 33s on American roads. Is 
that your testimony?
    Mr. Moyes. Yes, that is correct. These are my numbers, but 
there would be 50 percent of the truckload industry probably 
would have to go to them, and they're 70, 78 percent.
    Senator Wicker. Let me ask Dr. Lund this question. Could 
you define for the Committee what an out-of-service vehicle 
violation is?
    Dr. Lund. Yes. An out-of-service vehicle violation is one 
that's serious enough that the truck is taken off the road. So 
if the brakes are out of adjustment enough or there are 
steering problems or lighting problems, that the truck is 
unsafe on the road, it's put out of service.
    Senator Wicker. And there is an Insurance Institute for 
Highway Safety study that concluded that a truck with an out-
of-service violation is 362 percent more likely to be involved 
in a crash. Would you support that figure?
    Dr. Lund. That is correct. Those are the data from our most 
recent research in North Carolina.
    Senator Wicker. And one of the key findings of the U.S. 
Department of Transportation in a recent truck size and weight 
study was that double-trailer trucks had the highest percentage 
of out-of-service violations of any other truck--of any of all 
of the truck configurations used on our highways. Would you say 
that is accurate also?
    Dr. Lund. I don't know that study, but that would be a 
problem. I trust the statistics from the Federal Government. 
And the higher rate of out-of-service would indicate a higher 
risk of crashing on the highway.
    Senator Wicker. Thank you very much.
    And thank you, Madam Chair.
    The Chairman. Thank you, Senator Wicker.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Madam Chair and Ranking Member 
Booker. And thank you to all of the panelists for being here 
today.
    The trucking industry plays a critical role in our national 
economy, clearly, and also in my home state of New Hampshire. 
As technology evolves, we will need to make important 
decisions, as we're all talking about right now, that will 
impact the safety and well-being of this industry and our home 
state communities.
    At the end of the Obama administration, the Department of 
Transportation announced a multistakeholder working group on 
automation that consisted of various public and private sector 
stakeholders as well as innovators, labor, and academia.
    As Governor of New Hampshire, I saw firsthand the value in 
bringing people together to face challenges head-on and have 
the kind of discussions that can lead to really meaningful 
solutions.
    So the question for all of you is really, do you believe 
this kind of voluntary working group can be an effective tool 
to shed light on how we can go about modernizing our freight 
systems and exploring autonomous technology? And do you hope to 
see the working group continued under the current 
administration?
    Any one of you can start. Any takers?
    Mr. Hart. I would like to answer that question, a very good 
question. Automation is very challenging. The good news is 
there is more automation; the bad news is there is more 
automation. Because of the complexity of it, I think it's going 
to be essential to have a collaborative solution, and I 
encourage the collaboration of all of the players who have a 
dog in the fight, and that's quite a few players. So, yes, it 
can't be done without extensive collaboration, so I certainly 
encourage that.
    Senator Hassan. Thank you. Anyone else want to chime in?
    Dr. Lund. If I may.
    Senator Hassan. Yes.
    Dr. Lund. Certainly, automation offers great potential for 
reducing crashes, making everybody safer. We saw that in our 
research in North Carolina with less advanced technology. The 
new technology coming has great potential. But we do need to 
work together to get that on the road in ways that people will 
trust it, especially automated vehicles. If we're going to have 
trust in it, then people have to talk to one another and 
understand what it is that we're putting on the highway.
    Senator Hassan. Thank you.
    Mr. Moyes. I would just like to add to that that one of the 
biggest problems is the infrastructure, and it has a direct 
relation with safety.
    Senator Hassan. Yes.
    Mr. Moyes. So we can have all the technology and keep up 
with technology, but, you know, the administration is looking 
at huge numbers for infrastructure that is deeply needed out 
there, and it does have a direct effect on safety.
    Senator Hassan. Well, thank you. And actually I was going 
to get to infrastructure in my next question, so I think you've 
answered it nicely and clearly. You know, it's something that I 
think every member of the panel agrees and all the Governors I 
talk to agree we really need, and it's critical for our economy 
and for our safety.
    The rest of my questions really had to do with questions 
that Senators Blumenthal and Wicker have already addressed. 
I'll just add my name to the list of people who think that the 
double 33s are a really bad idea. You know, in New Hampshire, 
we've got a variety of kinds of roads, we've got mountainous 
terrain, and I would be very, very concerned about the impact 
of double 33s on our roads. And I also share the concerns that 
some of you indicated about the economic pressures of having to 
go to double 33s.
    So I thank you all for being here. And if anybody would 
like to make any other comments on either stakeholder process 
or double 33s or infrastructure, we have a little time left, 
but I'm really done with my questions. Thank you.
    Dr. Jovanis. On the question of automation, I think some of 
the studies that I've seen show that the real impact of 
automated vehicles and potentially automated trucks is going to 
be out in the future. And in the interim, you have to deal with 
a mixed vehicle fleet of not automated or not autonomous and 
driver-driven vehicles. So while there is no question that they 
offer tremendous potential payoff, they're a ways down the 
road.
    And I just would like to come back to Chairwoman Fischer's 
comment about data and analysis. Sometimes I think in the 
field, the whiz-bang and the technology gets all the press, but 
the hard work is digging around in the data to try to figure 
out what the problems are today.
    Senator Hassan. Yes.
    Dr. Jovanis. And so I guess I would feel like I wasn't 
doing my job if I didn't try to remind people of that point and 
emphasize the importance of improvements in data, improvements 
in data analysis, and particularly in crash data on heavy 
trucks.
    Senator Hassan. Thank you very much.
    The Chairman. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Chair Fischer and 
Ranking Member Booker for holding this important hearing today. 
I think we all know the trucking industry plays a critical role 
in getting goods to market, and trucks carry approximately 75 
percent of domestic cargo by value, and there are over 539,000 
interstate motor carriers and intrastate hazardous materials 
motor carriers operating in our country.
    I appreciated that Senator Fischer raised the issue of the 
state commercial motor vehicle safety program and some of the 
loss of funds and what we should be doing to change that.
    I wanted to focus on a specific issue with you, Mr. Moyes, 
and that is the human trafficking. Last year, the FAA Extension 
Act included a provision that I championed with Senator Warner 
for training flight attendants on spotting human trafficking. 
It actually came from the flight attendants, was supported by 
the airlines.
    Like flight attendants, truck drivers are on the front 
lines. I know that human trafficking prevention is also a 
priority at Swift Transportation. Could you talk a little bit 
about your efforts as we work with the Truckers Against 
Trafficking group? Thank you.
    Mr. Moyes. Thank you. And we are involved with the Truckers 
Against Trafficking, we're very involved with that. We have a 
program that we run all our drivers through of what they can do 
and what they can be recognized out there in the system. We are 
very supportive of the other organization that Demi Moore is 
involved in, I can't tell you what it is, but----
    Senator Klobuchar. Right.
    Mr. Moyes. But we're very involved and recognize it's a 
huge problem, and we're trying to do what we can, you know, 
from our company and our industry also. Our industry is very 
involved in it.
    Senator Klobuchar. OK. Very good. Thank you. You're also an 
industry leader in terms of safety. Could you give me some 
ideas about how you can increase productivity without 
compromising safety? I think that's always the tradeoff we 
face.
    Mr. Moyes. Well, it's not a tradeoff because safety is 
always number one and you've got to recognize that. There are a 
lot of things that we can do to increase our productivity. Our 
drivers, even though they're allowed to work 10, 11 hours a 
day, we're not utilizing that much. So there are a lot of 
things we've got to do as an industry, work with our shippers 
and our consignees to better utilize the equipment and the 
drivers that we have today, and that's an area that we need to 
work on.
    As I stated earlier, we lose a lot of productivity because 
of the infrastructure, and I think that could be an 
improvement. But I just want to come back, you can never debate 
safety versus productivity. I mean, safety is always number 
one.
    Senator Klobuchar. OK. Thank you.
    Mr. Hart, I included a provision in the FAST Act on 
distracted driving with Senator Hoeven to make it easier to get 
the grants. The NTSB recently found that the percentage of 
drivers who admitted to surfing the Web while driving rose from 
13 percent in 2009 to 30 percent in 2015. Data from 2015 showed 
that 116,000 people were injured in crashes involving trucks, 
which was a 57 percent increase.
    Mr. Hart, eliminating distractions was included in the 
NTSB's Most Wanted List of transportation safety improvements 
this year. What more can be done to reduce distracted driving?
    Mr. Hart. Thank you for the question. This is going to be 
quite a complicated endeavor. I analogize it to drinking and 
driving.
    Senator Klobuchar. Right.
    Mr. Hart. Back when I was a kid, I remember it used to be 
funny to see someone who was drunk, and they had TV shows where 
they had comedy, you know, comedians, who were drunk, and you 
laughed at that, and that was funny. Now it's not funny, it's 
not cool to be drunk. That was a whole change of culture that 
MADD started and that was a grassroots change in culture.
    I think we're going to have to have a similar grassroots 
change in culture because so many people--we have now fatal 
accidents in every mode of transportation due to distraction, 
mostly personal electronic devices. So a lot of people say 
they're so good at it, ``I can do this.'' NHTSA statistics show 
that you are 23 times more likely to have a crash if you're 
texting, not 23 percent, but 23 times. It's a huge--and it's 
going to take a cultural change for people to stop thinking, 
``Yes, I can multitask.''
    Senator Klobuchar. What ideas do you have on how we get 
there?
    Mr. Hart. Well, that's the challenge, is, how can we--it's 
going to take more--again, grassroots campaign, people who lose 
loved ones because somebody is texting, and they're going to 
start going after it like MADD did because of the same kind of 
reasons. It's going to take a very intensive effort at all 
levels, but it's going to have to be a grassroots campaign.
    Senator Klobuchar. And some of it state by state I think as 
far as what we can do.
    Mr. Hart. Right.
    Senator Klobuchar. Any other comments on this? Dr. Lund?
    Dr. Lund. Yes. I would like to use that to jump off to the 
fact that distracted driving is more than the electronic 
devices that are coming into our vehicles. Drivers get 
distracted by lots of things. And what's important is the new 
technology that's coming. I want to give that a plug. The front 
crash prevention systems, forward-collision warning, autonomous 
emergency braking, things like that, which can take action, 
bring drivers' attention back to the road when it's needed, or 
potentially mitigate the crash on its own.
    So I think one of the things we need to keep in mind about 
distracted driving is it's more than the electronic devices. We 
need to help prevent these crashes no matter why people are 
distracted.
    Senator Klobuchar. Well, there is also technology that 
we've been--the University of Minnesota has been studying to 
try to--with kids especially, if you can shut off the devices 
when they're driving, not the devices you're talking about, of 
course, but the personal devices, and other things you could be 
doing to use technology to warn them not to use them. So, OK, 
thank you.
    The Chairman. Thank you.
    Senator Booker.
    Senator Booker. Mr. Moyes, I just love your story, and what 
a great American story of starting a company, building it out, 
creating jobs, economic activity. You should be obviously very 
proud of what you've accomplished, and I appreciate you taking 
the time to be here.
    I'm curious. I want to really pin what my friend Roger, 
Senator Wicker, was pushing at, which is this idea for you to 
stay competitive, you're basically testifying that if the twin 
33s come about and other companies are using them, you will 
feel, just to be competitive, and other companies like you, 
will be forced to try to compete to take up the same kind of 
more dangerous vehicles.
    Mr. Moyes. Yes, that is correct. We would be forced to 
change up to 50 percent of our fleet to the twin 33s if that 
was the case just to stay competitive, yes.
    Senator Booker. So you favor the Federal Government not 
allowing these vehicles to be on the road.
    Mr. Moyes. That is correct. Yes, sir.
    Senator Booker. So in some cases, and help me understand 
this, because I've seen industry, for lots of different 
industries, come to us asking to roll back regulations, and 
some industries come in and ask for regulations, in other 
words, to create a Federal standard, so you don't have a 
patchwork in different states.
    And you're a person, clearly your company has made a 
tremendous investment above your competitors, in other elements 
of safety in your vehicles. Would you say that's correct?
    Mr. Moyes. Yes.
    Senator Booker. Does that give someone who is trying to cut 
costs and compete with you on cost, an unfair advantage, you're 
putting all this safety and reducing risks, but some of these 
other safety measures that are not being mandated that you're 
doing voluntarily and making the roads more safe, does your 
competitor who is not making these investments have sort of an 
unfair advantage even though they're rolling at a greater risk 
to the overall public?
    Mr. Moyes. I hope I'm answering your question. These 
investments in safety have to have a payoff. I mean, it's not 
only the safety to the motoring public, but it's to our 
shareholders. And we have an extremely high self-insurance 
premium. So by bringing on more and more of this technology, 
reducing our accidents, yes, number one, it's for the motoring 
community, but, number two, it's for our shareholders. And so 
we have to watch that very closely. I mean, but that has never 
interfered with us in technology today. We've always looked at 
the safety first.
    Senator Booker. And I just want to ask Dr. Lund, because he 
sort of gave this amen chorus, he was shaking his head and 
smiling. Sir, do you agree with what he was saying? In other 
words, that he is making a good business decision here by 
making investments in other companies or not?
    Dr. Lund. Absolutely. One of the things that can put trucks 
out of service is getting into a crash and the damage.
    Senator Booker. Yes.
    Dr. Lund. So that's lost productivity when that happens. So 
there is an economic benefit as well as the safety benefit.
    Senator Booker. Maybe I can ask the two of you then, 
because a lot of the crashes that we have, a trucking company 
isn't necessarily covering the full cost of that crash. A lot 
of it falls on the taxpayers. So if you put in safety equipment 
and you reduce the number of crashes, clearly, I trust Mr. 
Moyes, he's built a great American company, that he's doing a 
cost-benefit analysis, it's better to be safer.
    But what is happening in a free market right now is that 
taxpayers, they're externalizing the cost of crashes because 
according to the data that I have in front of me, a multi-
vehicle truck accident can cost over $20 million to compensate 
families and pay for the impact on our infrastructure. However, 
the requirement to carry at least $750,000 of minimum insurance 
has not been increased for 30 years, even to account for 
inflation, which has led to taxpayers having to foot the bill 
in the aftermath of these truck accidents.
    That to me, I'm actually a really big free market guy, but 
I don't like it when corporations sort of foist their cost, 
externalize their expenses, and I see that in all kind of 
industries. I mean, the Passaic River in New Jersey is a 
testimony to companies in the past externalizing their costs 
onto future generations who now can't fish or swim or recreate 
in that river.
    So is this a case--I ask Mr. Moyes and Dr. Lund both 
together, a business person and an independent sort of watchdog 
group, is that truly a problem? Because I know in my state when 
these trucks, I mean, explosive impact for--they might not have 
the safety provisions there. My taxpayers in New Jersey end up 
picking up the costs of that damage.
    Mr. Moyes. Yes. We would certainly support an increase in 
the minimum on truck liability insurance. I think the number is 
$750,000 today is the minimum. Our company carries I think it's 
almost $250 million. And that's an expense, but, I mean, you 
know, we have to----
    Senator Booker. So you insure your trucks for above the 
minimum $750,000.
    Mr. Moyes. Dramatically, yes. I think it's $250 million we 
insure for. But, you know, you have an accident, and, you know, 
$750,000 don't go very far today, you know, if you've got some 
multiple injuries and a horrible example of some deaths.
    Senator Booker. OK. I'm over my time, so I'll wait.
    The Chairman. Thank you, Senator Booker.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Madam Chair. And thank you all 
for being here. So I wasn't here for the testimony, but we've 
been listening down in our office, and this is an issue I think 
of great importance to many, many people.
    I would like to talk about an issue that I've gotten 
involved in, and that's removing drivers from the roads who are 
under the influence of drugs or alcohol because of how key it 
is to reducing highway fatalities and crashes. In last year's 
THUD bill, I supported language that brings greater attention 
to this issue. And I've worked with Senator Udall on 
legislation authorizing Federal research critical to 
eliminating drunk driving, and in the FAST Act, a number of 
safety provisions were included to enable states to eliminate 
some of those--to implement some of those.
    But as we know, driving under the influence is a 
preventable crime, and we must do everything we can to 
eliminate this. And I was wondering what kind of initiatives 
you've seen either at the State level or within your companies 
or at the NTSB that has worked successfully and where you think 
the next level we need to go to try to get a better handle on 
this issue. Anybody have a--I'm not asking specifically. Does 
anybody want to jump into that?
    Mr. Hart. Thank you for question. It's a multifaceted 
issue, and we've been pushing it on several facets. So, for 
example, there's the technology, there's the DADSS, that would 
not let you drive if you're----
    Senator Capito. Right.
    Mr. Hart. There is education. There is enforcement. We're 
also pushing--we've got our--we made ourselves very unpopular 
with a lot of people by pushing to move the BAC limit from .08 
to .05, and now it appears that Utah may be the first state in 
the country to do that. So it's a multifaceted issue, and we're 
pursuing all of those facets.
    Senator Capito. Anybody else? Comment? Dr. Lund?
    Dr. Lund. Yes. I think one of the things the research has 
shown clearly is that if you want to reduce this kind of 
behavior, you've got to increase the certainty that people get 
caught and that they are convicted if they are caught. So that 
would be one of the first things, is to look at states. They're 
not always popular, but sobriety checkpoints we know increase 
the likelihood that people are detected for driving under the 
influence, and once they're detected, then they can come into 
the system. The truck driver--trucking companies can know that 
their drivers have the problem. So the first thing is to 
increase the certainty.
    Other things that we can do for drivers who have been 
caught, first offender alcohol interlock laws are being shown 
to be effective, and that gets people into the system. So again 
you know about them. I think that's good.
    I support all the things that Chairman Hart said as well, 
but I would just add those.
    Senator Capito. Anybody else have a comment? Yes, Mr. 
Moyes.
    Mr. Moyes. I've just got some statistics, that .08 percent 
of our industry that had accidents were involved in alcohol, 
and .09 percent was involved with drugs, which is that's too 
many, but it's a very, very small number. But one of the things 
that hasn't come up here is testing for hair follicles, and I 
think that's something you'll be hearing furthermore on, and we 
strongly support that. We're----
    Senator Capito. Do you random test at your company? I'm 
sure you do.
    Mr. Moyes. Say again?
    Senator Capito. Do you random test, drug test, at your----
    Mr. Moyes. Oh, yes.
    Senator Capito. Yes.
    Mr. Moyes. But the hair follicle is much more accurate----
    Senator Capito. Accurate?
    Mr. Moyes.--than the other testing methods.
    Senator Capito. Captain Turner?
    Captain Turner. Yes, ma'am. One of the most critical and 
important things any traffic enforcement or law enforcement 
agency does is traffic enforcement on drug or alcohol-impaired 
drivers. And this issue, specifically coming back to us, 
requires a couple things. It requires a well-trained officer 
and it requires an officer looking for the driving cues that 
are published by NHTSA, and the ability to be able to enforce 
in that manner.
    So for us, and this goes back to the funding issue that we 
talked about earlier, now we're losing the ability to 
effectively train our officers because we don't have enough 
funds coming in to be able to sponsor those programs. And, 
again, the anomaly where those are used for high-priority 
programs where we have our officers have the ability to go out 
and target the vehicles committing violations around large 
trucks, whether that's another truck or it's a passenger car, 
that typically those violations are moving hazardous 
violations. And now your violations are moving hazardous 
violations, are an indicator of someone who is impaired and/or 
distracted or any other issue that may cause that crash. So for 
us, that funding issue is very critical to be able to support 
those programs and the specific question that you asked.
    Senator Capito. All right. Thank you. I think that does it 
for me because I'm down to 8 seconds. Thank you so much.
    The Chairman. Thank you, Senator. We've been joined by the 
Chair of the Committee, Chairman Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Senator Fischer. Thanks to you 
and Senator Booker for holding this important hearing. These 
transportation safety issues have been and will continue to be 
a major focus of this committee, and after more than 30 short-
term extensions, this committee and others provided much needed 
certainty with the passage of the FAST Act in 2015, and the 
Commerce Committee's work accounted for almost half of the 500 
or so pages in that final bill and really did, I think, help 
improve safety not just for motor carriers, but across the 
various modes of transportation while promoting the efficiency 
of our transportation network and helping with project 
delivery.
    Many of the Members of this Committee worked across the 
aisle to contribute to the improvements achieved in the FAST 
Act. Senator Fischer was key to the reforms in the Federal 
Motor Carrier Safety Administration, Senators Wicker and Booker 
formed a team to reauthorize rail safety programs, and many 
more made contributions to ensure greater safety throughout our 
transportation system. I even think Senator Inhofe, who is now 
on our Committee, may have helped there when he was over as 
Chairman of the Environment and Public Works Committee. But 
despite that progress, there is always more that we can do, and 
recent trends suggest that casualties on our Nation's highways 
are growing.
    Trucking is a vital part of our economy. It's a Federal 
responsibility to ensure the safety of the citizens and goods 
that move across our highways, and in the FAST Act, our safety 
improvements included boosting funding for truck safety 
enforcement, providing reforms to help states make a 
significant impact with their infrastructure enforcement funds, 
and ensuring more stringent drug testing for truck drivers.
    Although the FAST Act was a step in the right direction, 
this committee will continue to look for opportunities for 
potential reforms and improvements to truck safety, and today 
is a part of that process, providing a good occasion to hear 
from a range of witnesses with various approaches and ideas on 
how we can best improve safety as it relates to motor carriers.
    So I want to thank all of our witnesses for being here 
today.
    And, Mr. Moyes, nice to see you again. It was great 
visiting your facility out in Arizona a few months back. And I 
appreciate your contributions to this hearing. And thanks to 
the entire panel.
    I do want to ask Captain Turner, you mentioned in your 
testimony the important reforms and funding allocations 
achieved in the FAST Act particularly as it relates to the 
Motor Carrier Safety Assistance Program, or MCSAP. 
Unfortunately, those changes have yet to be realized as we 
operate under Continuing Resolution. So could you speak in more 
detail to how the lack of certainty at the Federal funding 
level is impacting states like yours and others?
    Captain Turner. Directly to Kansas, the number one issue 
for us is going to be jobs lost. And Chairman Fischer asked 
that question earlier, or a similar question, and that is 
without question the number one problem that we are going to 
face.
    So as we lose people through attrition and directly 
related, I have had three people retire as an example. And I 
have their positions allocated, but now I don't have the funds 
to fill those positions. And I have to hold off filling those 
positions and the job and then the outcome and the work product 
that they would normally perform, because I don't have any 
certainty on whether or not those funds are going to be there.
    We build our grants, we submit our grants and our budgets, 
which are expected outcomes, and the money we expect to receive 
based on any highway funding authorization, and when we submit 
those, we expect that those funds will be there and plan both 
our activities and the jobs that we'll have over the course of 
the next year, and then when they're not there, we have to play 
catch-up.
    So when we lose people, we have to endure that shrinkage 
until such time as the money is there, but often even if the 
money comes in the next year, we have already lost the people. 
And trying to get a new FTE through a state or bring a person 
back into that problem to be able to fulfill that takes years. 
It's not just a one-year fix, it takes years to get that 
position back, if ever, and it takes years to get that 
productivity back, if ever.
    Senator Thune. And just very quickly, if I could, just have 
each of the members of the panel, as this committee looks at 
transportation issues in the 115th Congress and where we can 
make safety improvements, maybe could you each provide your top 
suggestion of where we can best direct time and resources to 
increase truck safety? We'll start on the left. Mr. Hart.
    Mr. Hart. We have what's called a Most Wanted List that has 
several areas that would affect trucking safety. The three I 
talked about already were fatigue, distraction, and impairment. 
We're also looking at collision avoidance systems. We're 
looking at medical fitness for duty. There are a number of 
issues that we are looking at. I'm not sure we're in a position 
to prioritize them because there are quite a few that we 
suggested on our Most Wanted List.
    Captain Turner. CVSA would need reliable and consistent 
funding. We need consistent regulations that allow us to have 
enforcement be consistent throughout the Nation. And then we 
need the ability to inspect en-route motorcoaches to keep the 
public safe.
    Dr. Jovanis. I'll speak personally as a researcher in the 
field for the last 35 years. I think the most important aspect 
is to develop high-quality data on truck crashes and their 
occurrence and their characteristics and to provide follow-up 
capability to analyze those data to get a much better picture 
nationally of where truck crashes are occurring and the causes 
and contributing factors of those crashes.
    Mr. Moyes. Senator, I think, as mentioned earlier, the 
infrastructure is probably the biggest area that we feel that 
could really help the safety and help the productivity of our 
industry. It just costs us a tremendous amount of money from 
the equipment and maintenance side as well as productivity.
    One of the other areas that has not been brought up--and I 
talked to Dr. Lund here before--is rear-end crashes, where we 
are rear-ended. We have seen a huge increase. I don't have the 
statistic, but we have like one or one and a half a day of 
vehicles running into the rear end of us. And we're doing some 
things with better rear end equipment to help that, but it's 
just texting and driving on the phone, and it's a huge issue. 
And even though we're not at fault, our vehicle is down for a 
day or two, and it creates huge problems.
    Dr. Lund. Thank you. And I want to thank Dr. Moyes for that 
reference to rear underride guards. I certainly support that. 
We've recently come up with our own tests and are identifying 
trailers that meet what we call a TOUGHGUARD standard. And 
thanks to companies like this, more trailer manufacturers are 
doing a good job there.
    But you asked for what would be the number one thing we 
could do. Probably the first thing that we could do that would 
make a big difference is to reduce the speeds on our highways. 
We have states where the speed limit is 80 miles an hour, and 
that's the speed limit for trucks. So we would think--you know, 
trucks weigh a lot, and that plus the speed means their kinetic 
energy is huge, and that's what has to be managed within 
crashes. So that would be the number one thing.
    But I would like to put in again a plug for the new 
technology that's out there that can help us all: forward-
collision warning, automatic emergency braking, lane departure 
prevention, things like that.
    The Chairman. Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. I want to thank the Chair and Ranking 
Member for convening this important hearing on improving 
highway safety. In Illinois and across the Nation--you know, 
when I travel across Illinois, I hear a call for Congress to 
finally come together and work to modernize our country's 
infrastructure, including fixing our highways and bridges.
    A critical component of this effort must be enhancing 
transportation safety systems across all modes of transit. 
Three years ago, we were tragically reminded of consequences of 
lax safety systems when a truck driver who had slept less than 
5 hours in the 37 previous hours leading up to the crash plowed 
into emergency vehicles on Interstate 88 near Naperville in 
Illinois. This driver, who was operating his truck in violation 
of safety regulations, killed Mr. Vincent Petrella, an Illinois 
tollway employee, and severely injured Illinois State Trooper 
Douglas Balder, who then spent 6 weeks in a medically-induced 
coma.
    After the deadly accident, we learned that the truck driver 
was employed by a company that was classified by regulators as 
high risk due to a lengthy record of failing to follow the 
rules. In fact, even after this crash, this high-risk company 
was able to reverse an effort by the Federal Motor Carrier 
Safety Administration to shut it down, and it shut down as a 
company only after the firm's private insurance company 
canceled coverage, that the carrier was finally forced to shut 
its operations. Clearly, significant work remains to be done 
when it comes to improving trucking safety in my state and 
throughout the country.
    Chairman Hart, I would like to examine an important issue 
your testimony raised, modernizing our safety system to move 
beyond static compliance to active prevention. If I understand 
your testimony correctly, studies by NTSB and National Highway 
Traffic Safety Administration have found that universal 
adoption of existing collision avoidance technologies, such as 
autonomous emergency braking, reduced the number of crashes and 
saved lives. Is this correct?
    Mr. Hart. Yes, we have quite a bit, quite extensive, and 
solid evidence that there is lifesaving promise in new 
technologies.
    Senator Duckworth. Thank you. As we look to promote 
adoption of a beyond compliance program that emphasizes 
achieving real-world safety improvements, what would be your 
top three recommendations for Congress, whether it's through 
oversight or legislation, to achieve this important national 
goal?
    Mr. Hart. We know that improving safety by improving 
regulations is slow and cumbersome. We are trying to--we're 
encouraging voluntary use of things like forward-collision 
warning systems, forward-collision avoidance systems, so that 
we can do things that--because even the best driver, even the 
driver who is not impaired, who's not incapacitated, who's not 
distracted, even on their best day, they may can still make 
mistakes and still have accidents. So that's why we're looking 
for new technologies that would help prevent collisions.
    Senator Duckworth. What is it that we in Congress can do to 
help move that forward though?
    Mr. Hart. Incentivize the voluntary use of new 
technologies.
    Senator Duckworth. Through grant programs? Through what?
    Mr. Hart. Well, it's hard for us to be that prescriptive 
because that's not really our bailiwick, but we would just say 
in general anything that can help incentivize the voluntary 
improvement of safety technologies would be a plus.
    Senator Duckworth. OK. Thank you.
    I did want to talk to one other thing. This is a priority 
of mine and families across the Nation, making sure that every 
child uses lap and shoulder safety belts when traveling to 
school, whether by car or by bus.
    I recently had a large commercial motor carrier 
manufacturer visit my office, and I was very pleased to hear 
that industry is making progress in implementing safety 
upgrades that recent Congresses have mandated over the past few 
years. It appears that American companies are proud to put our 
constituents back to work, creating an even better product that 
is more reliable and far safer.
    So, Chairman Hart, my question is pretty straightforward. 
What makes a large school bus so different from a commercial 
truck or a motor carrier? In my home state, we are home to IC 
Bus, a school bus manufacturer that proudly features a three-
point safety belt system on new models.
    So, clearly, new technology exists to make lap belts and 
shoulder belts a reality on all new school buses rolling off 
assembly lines. The question is, do we have the will? From your 
perspective, as Chairman, what should Congress be aware of as 
we consider this question? How do we make usage of seat belts 
in school buses universal?
    Mr. Hart. We have spent extensive energy on that issue. One 
of the areas of resistance is the fact that school bus 
transportation is by far the safest means of transportation to 
and from school, safer than driving with your parents, safer 
than walking, safer than any other way to get to and from 
school. That's part of the reason for the resistance to the 
additional expenditures for belts.
    Our accident investigation experience has shown that belts 
are important in two instances where we're seeing serious 
problems: one is rollovers and two is side-impact crashes. The 
compartmentalization that's put into the buses today deals with 
longitudinal crashes. The belts are needed for side impact and 
rollover. So lap belts are great; lap and shoulder belts are 
far, far better.
    We encourage any jurisdiction that's going to look at any 
belts at all to look not only at lap belts, but to look at lap 
and shoulder belts to be able to handle not only the 
longitudinal ones, which are already taken care of largely by 
compartmentalization, but also to handle side-impact and 
rollover crashes.
    Senator Duckworth. Thank you. And I'm out of time. Thank 
you.
    The Chairman. Thank you, Senator Duckworth.
    I would like to thank all of our panelists today. This has 
been a very interesting and informative committee hearing.
    Senator Wicker. Can I ask one follow-up question?
    The Chairman. Can you submit it for the record, please?
    Senator Wicker. OK.
    The Chairman. OK. Thank you.
    [Laughter.]
    Senator Wicker. Dr. Lund and Dr. Jovanis stay after class.
    [Laughter.]
    The Chairman. Mr. Wicker would like to visit with you 
privately.
    The hearing record will remain open for 2 weeks, and during 
this time Senators are asked to submit any questions for the 
record. Upon receipt, the witnesses are requested to submit 
their written answers to the Committee as soon as possible.
    Once again, I thank you all for being here. We are 
adjourned.
    [Whereupon, at 4 p.m., the hearing was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
